Audit Report




OIG-07-027
Audit of the Department of the Treasury Forfeiture Fund’s
Fiscal Years 2006 and 2005 Financial Statements


January 25, 2007




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              January 25, 2007


            MEMORANDUM FOR ERIC E. HAMPL, DIRECTOR
                           TREASURY FORFEITURE FUND

            FROM:                  Joel A. Grover
                                   Deputy Assistant Inspector General
                                    for Financial Management and Information
                                    Technology Audits

            SUBJECT:               Audit of the Department of the Treasury Forfeiture Fund’s
                                   Fiscal Years 2006 and 2005 Financial Statements


            I am pleased to transmit the attached audited Department of the Treasury
            Forfeiture Fund (TFF) financial statements for Fiscal Years 2006 and 2005. Under a
            contract monitored by the Office of Inspector General, Gardiner, Kamya &
            Associates, PC (GKA), an independent certified public accounting firm, performed
            an audit of the financial statements of TFF as of September 30, 2006 and 2005
            and for the years then ended. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 06-03, Audit
            Requirements for Federal Financial Statements; and the GAO/PCIE Financial Audit
            Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                •   Independent Auditor’s Report on Financial Statements;
                •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditor’s Report on Compliance with Laws and Regulations.

            In its audit, GKA found that the financial statements were fairly presented, in all
            material respects, in conformity with accounting principles generally accepted in
            the United States of America. However, GKA’s Report on Internal Control over
            Financial Reporting identified the following reportable condition, which was not
            considered a material weakness:
Page 2

   •   Indirect Overhead Expenses of the National Seized Property Contractor are
       Not Recorded and Accounted for by the Fund to the Line Item Level (Repeat
       Condition).

In addition, GKA found no instances of reportable noncompliance with laws and
regulations tested.

GKA also issued a management letter dated October 31, 2006, discussing a matter
involving internal control over financial reporting and its operation that was
identified during the audit but was not required to be included in the auditor’s
reports.

In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. GKA is responsible for the
attached auditor’s reports dated October 31, 2006 and the conclusions expressed
in the reports. However, our review disclosed no instances where GKA did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
Treasury Forfeiture Fund

ACCOUNTABILITY REPORT 

    Fiscal Year 2006

  DEPARTMENT OF THE TREASURY 

       WASHINGTON, D.C.

                                                  Table of Contents


Section I: Overview

    Profile of the Treasury Forfeiture Fund ......................................................................1 

    Strategic Mission and Vision ......................................................................................1 

    Case Highlights...........................................................................................................2 

    Program and Fund Highlights...................................................................................26 

    Program Performance ...............................................................................................27 

    Financial Statement Highlights.................................................................................29 


Section II: Financial Statements

    Independent Auditor’s Report on Financial Statements ...........................................33 


    Financial Statements: 

       Balance Sheets ....................................................................................................35 

       Statements of Net Cost........................................................................................36 

       Statements of Changes in Net Position...............................................................37 

       Statements of Budgetary Resources....................................................................38 

       Statements of Financing......................................................................................39 

       Notes to Financial Statements.............................................................................40 


Section III: Other Reports

    Independent Auditor’s Report on Internal Control over Financial Reporting..........57 

    Independent Auditor’s Report on Compliance with Laws and Regulations.............59 


    Exhibit I
       Reportable Condition ..........................................................................................61            


    Exhibit II
       Status of Prior Year Findings..............................................................................63 


Section IV:

Required Supplemental Information...............................................................................66 


Section V:

Other Accompanying Information..................................................................................68 

                                Treasury Forfeiture Fund
                              FY 2006 Management Overview


Profile of the Treasury Forfeiture Fund

The Treasury Forfeiture Fund (the Fund) is the receipt account for the deposit of non-tax forfeitures
made pursuant to laws enforced or administered by law enforcement bureaus that participate in the
Treasury Forfeiture Fund. The Fund was established in October of 1992 as the successor to the
Forfeiture Fund of the United States Customs Service. The Fund is a “special receipt account.” This
means the Fund can provide money to other federal entities toward the accomplishment of a specific
objective for which the recipient bureaus are authorized to spend money and toward other authorized
expenses. The use of Fund resources is governed by law, policy and precedent as interpreted and
implemented by the United States Department of the Treasury which manages the Fund. A key
objective for management is the long-term viability of the Fund to ensure that there are ongoing
resources to support member-bureau seizure and forfeiture activities well into the future. The
emphasis of Fund management is on high impact cases that can do the most damage to criminal
infrastructure.

The Treasury Forfeiture Fund continues in its capacity as a multi-Departmental Fund, representing
the interests of law enforcement components of the Departments of Treasury and Homeland
Security. Member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS- CI),
the U.S. Secret Service, Immigration and Customs Enforcement (ICE), and Customs and Border
Protection (CBP). The U.S. Coast Guard continues its close working relationship with the legacy
Customs bureaus and functions in a member-bureau capacity.

The Executive Office for Asset Forfeiture (EOAF), which provides management oversight of the
Fund, falls under the auspices of the Under Secretary for Terrorism and Financial Intelligence.
EOAF’s organizational structure includes the Fund Director, Legal Counsel, Assistant Director for
Policy and Assistant Director for Operations. Functional responsibilities are delegated to various
team leaders. EOAF is located in Washington, D.C., and currently has 20 full time equivalent
positions.

Strategic Mission

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus that participate in the Treasury Forfeiture Fund to
disrupt and dismantle criminal enterprises.

Strategic Vision

Fund management works to focus the asset forfeiture program on strategic cases and investigations
that result in high-impact seizures. Management believes this approach incurs the greatest damage to
criminal organizations while accomplishing the ultimate objective – to disrupt and dismantle criminal
enterprises.




                                       SECTION I - OVERVIEW                                         1
Case Highlights

The following case highlights are intended to give the reader an idea of the types of investigative
cases worked by the Fund’s law enforcement bureaus during FY 2006 that resulted in the seizure and
forfeiture of assets. Such cases as those profiled below are consistent with the Strategic Mission and
Vision of the Treasury Forfeiture Program, which is to use asset forfeiture in high-impact cases to
disrupt and dismantle criminal enterprises.

Internal Revenue Service, Criminal Investigations (IRS-CI)
Department of the Treasury

Manuel Marquez, Jose Miguel Battle, Jr., Julio Acuna, Luis DeVilliers, Sr., Cabrerizo and
others – “The Corporation,” various racketeering charges including illegal gambling, drug
trafficking, other violations - $1.4 billion forfeiture verdict

 “The Corporation” was a criminal organization structured as a hybrid between a modern business
and the traditional Mafia organization. Only Cubans were allowed to function in command levels
and the hierarchy was composed of all blood relations to, or close friends of, Jose Miguel Battle, Sr.
(Battle). In the mid 1960’s, “The Corporation” was established by Battle with the sponsorship of
Santos Traficante, the Mafia Crime Boss of Florida, and began operations in New York City and
Union City, New Jersey, operating under and paying tribute to the five American Mafia families.

“The Corporation” originally began operating in the area of illegal gambling lottery operations called
“Bolita Numbers” or “Policy.” “The Corporation” quickly began to make tens of millions of dollars
annually, eventually expanding into illegal sports bookmaking and the operation of illegal traditional
and video slot machines. By the early 1970’s, “The Corporation” had become a major force in
organized crime, expending its operations into South Florida and into the importation of cocaine.
“The Corporation” later became involved in gambling, including lottery and bookmaking, arson,
homicide, narcotics trafficking, and money laundering.

“The Corporation” was able to infiltrate legitimate businesses throughout South Florida and launder
their ill-gotten gains via offshore shell corporations. Starting in the early 1980’s, members of “The
Corporation” deposited millions of dollars into offshore bank accounts located in Panama and
Switzerland. The offshore shell corporations in these foreign countries were incorporated through the
use of nominee members who acted as puppet owners. The shell corporations then “loaned” money
to legitimate businesses and/or funded the purchase of property and the construction of multi-million
dollar homes in South Florida.

In March 2004, members of “The Corporation” were indicted and arrested for Racketeer Influenced
and Corrupt Organizations (RICO) and Illegal Gambling violations. Fourteen members plead guilty
prior to the trial which started in January 2006 and lasted almost six months. Three additional
members pled guilty during the trial including the “Godfather,” Jose Miguel Battle, Sr. The three
remaining defendants, Jose Miguel Battle, Jr., Manuel Marquez, and Julio Acuna were found guilty
on July 26, 2006, of RICO Conspiracy which included acts of violence, illegal gambling, and money
laundering.

In addition to the guilty verdict against the defendants, the jury returned a forfeiture verdict of $1.4
billion. This figure represents the estimated amount of ill-gotten gains achieved by the criminal


2           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
organization while operating. The United States has already seized in excess of $20 million in
currency and other assets including approximately $10 million from accounts in Switzerland.




Two properties at 199 Ocean Lane Drive, Key Biscayne, Florida, were forfeited by Jose Battle, Jr., for criminal
racketeering activity associated with the long-running criminal syndicate known as “The Corporation.”




In addition, this luxury home in Florida was sold for $1.5 million and the proceeds forfeited to the Fund.


                                               SECTION I - OVERVIEW                                               3
Operation Falling Star - Leader of Detroit Drug Conspiracy Pleads Guilty – Quasand Lewis
Organization – forfeits $18.4 million to date

Quasand Lewis was the leader of a violent international marijuana organization responsible for the
distribution of over 30,000 kilograms of marijuana in Detroit, Michigan. The marijuana was obtained
from sources based in Mexico and Arizona and was transported by truck to Michigan. In July 2005,
a federal grand jury in the Eastern District of Michigan returned an indictment charging Lewis and 23
other individuals with various drug trafficking and money laundering offenses. The defendants were
charged with conspiracy to distribute marijuana and cocaine, and with money laundering, in the
Detroit area and elsewhere, from 1994 through 2005. On April 10, 2006, Quasand Lewis pled guilty
to charges of narcotics trafficking and money laundering.




                         Cash seized in Ohio from the Lewis narcotics organization.


The indictment also charged criminal forfeiture. In his plea agreement, Lewis agreed to the judicial
forfeiture of more than $9.5 million in various assets, including his interest in real properties, motor
vehicles, jewelry, bank accounts and cash. An additional $8.75 million currency was forfeited from
the Quasand Lewis organization, including currency that was seized in Ohio, Oklahoma and
Michigan. Total forfeitures, as of April 10, 2006, from the Quasand Lewis organization exceeded
$18.4 million.

The investigation resulted in the successful prosecution of over 40 individuals for drug trafficking
and money laundering including the leaders of a drug organization who were involved in a violent
drug feud that is alleged to have resulted in at least 10 homicides in Detroit, from 2002 through 2004.

4          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
                         A Florida property, valued at approximately $650,000, forfeited
                         in the Lewis case.


This was a joint investigation with Immigration and Customs Enforcement (ICE), the Drug Enforcement Administration
                             (DEA), and numerous state and local law enforcement agencies.


German Bank HVB Admits Criminal Wrongdoing and Agrees to pay $29 million as part of
Deferred Prosecution Agreement in Relation to Largest-Ever Tax Shelter Fraud – forfeits
$6 million

In February 2006, German Bank Bayerische Hypo-Und Vereinsbank AG (HVB) admitted to criminal
wrongdoing and agreed to pay $29,635,125 in fines, restitution and penalties, including a $6 million
forfeiture, as part of an agreement to defer prosecution of the bank in relation to its participation in
the implementation of fraudulent tax shelters devised by the accounting firm KPMG and others.

The felony Information filed on February 14, 2006 charged HVB with one count of conspiracy to
defraud the IRS. It charged that, from 1996 through 2003, HVB together with KPMG and certain
KPMG partners and employees participated in a scheme to defraud the IRS by devising, marketing
and implementing fraudulent tax shelters. HVB’s participation in the scheme stems from it’s role in
providing financing for fraudulent tax shelter transactions.

The Information focused on four tax shelters in which HVB participated, which, it was charged,
generated in aggregate over $1.8 billion in phony losses reported on United States income tax returns,
and the evasion of over $500 million in income taxes.


                                            SECTION I - OVERVIEW                                                 5
Christopher William Smith – Fraud – forfeits $387,250 and 17 exotic vehicles and other
property valued at $1.5 million

Christopher William Smith (Smith) owned Xpress Pharmacy Direct (XPD), a large-scale online
pharmacy business that was allegedly defrauding consumers and distributing prescriptions drugs,
including controlled substances, without appropriate prescriptions in violation of a host of federal and
state laws. XPD sold these drugs through a variety of websites. Smith, also controlled the
telemarketing arm of XPD, Online Payment Solutions (OPS). Essentially, OPS was a call center
used to solicit sales for XPD.
The investigation showed that Smith enlisted the help of a physician, Dr. Philip Mach, to use his
name to issue purported prescriptions. Dr. Mach, licensed to practice in the state of New Jersey, was
the sole physician to issue purported prescriptions for XPD customers throughout the United States.
Other than the online questionnaire, Dr. Mach had essentially no contact with customers but from
July 2004 through approximately May 2005, issued 72,000 prescriptions for XPD.
An investigation conducted by IRS-CI revealed that from March 2004 through May 2005, the
defendants generated gross sales for prescription drugs containing the addictive painkiller hydrodone,
a Schedule III controlled substance pursuant to the Controlled Substances Act, of over $20 million.
This illicit income was allegedly laundered through nominee bank accounts.
Smith purchased numerous expensive assets with the proceeds of his illegal activities including a
2004 Mercedes Benz Maybach luxury automobile and other luxury vehicles. The IRS obtained a
seizure warrant for all of the vehicles and other assets. The amount of $387,250 referenced in the
case header, above, was a down payment Smith made on a British Aerospace Aircraft valued at $1.16
million to Griffin Title and Escrow Company. The deposit was seized and forfeited to the Treasury
Forfeiture Fund. The Final Order of Forfeiture in this case was signed on June 14, 2006.

                               This was a joint investigation by the IRS-CI, FBI, FDA and
                                    other federal and local law enforcement agencies




The 2004 Mercedes Benz “Maybach” luxury automobile, above, selling for over $300,000 new, and the 2000 Ford
Excursion limousine, below, are just two of several luxury vehicles forfeited by Christopher William Smith pursuant to a
Final Order of Forfeiture filed June 14, 2006.

6            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
2000 Ford Excursion Limousine forfeited to the Treasury Forfeiture Fund from Christopher William Smith pursuant to
criminal charges including the unlawful distribution of prescription drugs including controlled substances.




The FY 2004 Lamborghini Murcielago, when new sold for $280,000, was also forfeited to the Treasury Forfeiture Fund
by Christopher William Smith. This vehicle hosts a V-12 (12 cylinder) engine, with 580 horsepower, and an advertised
top speed of 205 miles per hour.


                                             SECTION I - OVERVIEW                                                      7
Reagan Wireless Corporation – Conspiracy to Commit Mail Fraud, Wire Fraud and Money
Laundering – forfeits $5,000,000

Reagan Wireless Corporation (Reagan Wireless) operated a business in Pompano Beach, Florida that
was purportedly recycling electronic components. Large radio companies executed contracts with
Reagan Wireless to destroy cellular telephones, including irreparable and malfunctioning cellular
telephones, older models no longer for sale, parts and equipment, circuit boards, etc., and were
supposed to recycle the plastic parts of cellular telephones and equipment. Pursuant to the contract,
the co-conspirators sent these large radio companies a Certificate of Destruction certifying that the
cellular telephones, parts and equipment had, in fact, been destroyed, along with a videotape of the
actual process of destruction. However, Reagan Wireless had sold them instead.

The $5,000,000 forfeiture is pursuant to a plea agreement between Reagan Wireless Corporation and
the United States Attorneys Office whereby Reagan Wireless agreed to plead guilty to conspiracy to
commit mail fraud, wire fraud and money laundering and forfeit $5,000,000 to the United States.


Dov Shellef and William Rubenstein – Scheme to Evade $1.9 Million in Taxes – forfeits
$1,350,650

Dov Shellef was involved in a conspiracy to impair and defraud the Internal Revenue Service by
engaging in a scheme to evade the payment of $1.9 million in excise taxes due on sales of an ozone-
depleting chemical called thichlorotrifluoroethane, or CFC-113, commonly known as Freon. These
chemicals are subject to a substantial excise tax of several dollars per pound which is imposed to
discourage their use and to promote the transition to more ozone-friendly replacement products.
CFC’s, used primarily as refrigerants and industrial solvents, are subject to strict regulations under
the Clean Air Act. Shellef and his partner, William Rubenstein, also defrauded Allied Signal by
inducing Allied Signal to supply Shellef with the CFC-113 tax-free based on his representations that
the product was to be sold for export. In order to conceal the fact that they were selling the product
domestically, they removed references to the original manufacturer on the drums of CFC-113 and
relabeled the product. In addition, they created false shipping documents stating that the product was
being sold “For Export Only.”

Ultimately, Shellef and Rubenstein were charged in a 91 count indictment for conspiracy to impair,
impede and defeat the Internal Revenue Service, income tax evasion, wire fraud and money
laundering. The indictment also sought the forfeiture from Shellef of over $1 million of funds
involved in the money laundering offenses. In July 2005, a jury found the defendants guilty of 88 of
the 91 counts, and in April 2006, an Amended Final Order of Forfeiture was entered in this case,
which included forfeiture of $1,350,650, or substitute assets, and ordered Shellef to forfeit $550,000
deposited by the defendant with the United States District Court.


Seakhoung Ngo and Sekharith Be – Illegal Wire Transmitting Business and Structuring –
forfeits $6 million in cash, gems and jewelry

In 2004, IRS-CI special agents executed a search warrant and numerous seizure warrants relating to
an illegal Cambodian structuring/wire remitting/money laundering business in Stockton, California,
operated by Seakhoung Ngo and Sekharith Be. Subsequently, Be, Ngo and others were indicted on
money laundering charges in connection with coordinating the transfer of more than $21 million from

8          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
California and Texas bank accounts to the Canadia Bank in Cambodia and operating an illegal money
transmitting business. Between June 2000 and May 2004, Be, Ngo and others structured, and
conspired to structure, cash deposits involving millions of dollars by breaking the deposits into cash
amounts less than $10,000 to avoid the federal currency transaction reporting (CTR) requirements.
Thereafter, they wire transferred millions of dollars of alleged drug proceeds to the Canadia Bank in
Phnom Penh, Cambodia. Canadia Bank is the largest private bank in Cambodia and holds
approximately 25 percent of the country’s bank deposits.

Be pled to operating an illegal wire transmitting business and structuring and was sentenced in
September 2005 to 70 months in prison, fined $12,500 and ordered to forfeit his interest in various
assets including currency, gems and jewelry. The seizure warrants netted approximately $6,000,000
from various accounts, including approximately $5.4 million from five interbank or correspondent
accounts held by Canadia Bank. The seizures occurred under 18 USC 981(k), a provision enacted as
part of the USA Patriot Act.

 This was a joint investigation by the IRS-CI, FBI, DEA and the Department of Homeland Security with assistance from
                                        the Stockton, California Police Department.


David Tedder – Conspiring to Defraud the United States by Assisting a Wagering Enterprise,
Money Laundering – forfeits approximately $2.8 million

A four year multi-jurisdictional undercover and financial investigation into a multi-million dollar
illegal offshore sports bookmaking and sports handicapping telemarketing service in Wisconsin, Las
Vegas, Florida and elsewhere ended with a jury conviction of David Tedder. Tedder used his law
practice to help Gold Medal Sports (GMS) to conceal identities and income. GMS handled sports
wagers from customers in the United States over the telephone lines and the Internet in excess of
$400 million from 1996 to early 2000. Tedder was convicted of conspiring to defraud the United
States by assisting a wagering enterprise plus three counts of money laundering. Tedder also was
charged in a conspiracy to launder over $10 million in proceeds from GMS.

Tedder, acting as counsel for GMS owners, Duane Pede and Jeff D’Ambrosia, assisted GMS with
various problems, including: 1) getting around a ban on gamblers sending money to GMS via
Western Union; 2) creating shell corporations to hide GMS’ ownership interest in other business
entities and the owners’ interest in GMS; 3) setting up offshore bank accounts in the Bahamas using
false names; and 4) moving GMS profits from banks in the United States to offshore accounts beyond
the reach of U.S. laws. Trial evidence showed that Tedder moved over $4 million in GMS profits
from accounts in the United States to accounts in the Bahamas; convinced the GMS owners to invest
$1.2 million in profits in an offshore bank owned by Tedder called Mariner’s International Bank
located in St. Vincent and the Grenadines, and other incriminating behavior.

Tedder created and operated a business called Clear Pay to move money between gamblers in the
United States and GMS. The Attorney General of Florida had warned Western Union not to wire
funds to GMS. Clear Pay offered a solution by preventing Western Union (and other intermediaries)
from learning the funds’ ultimate destination. Tedder also created Bahamian shell corporations,
purportedly engaged in software development to help his clients hide their involvement, and wired
the gambling business’ profits to nominee accounts for which he was the custodian, and made other
foreign investments with a patina of legitimacy.




                                             SECTION I - OVERVIEW                                                  9
GMS owners Pede and D’Ambrosia were caught, plead guilty and testified against Tedder. Tedder
lost his license to practice law, is serving a sentence of 60 months imprisonment, has been fined more
than $1 million and ordered to forfeit nearly $2.8 million.

Fernando Carmona –Conspiracy to Commit Money Laundering and Interstate Transportation
in Aid of Racketeering Enterprises – forfeits $1 million

Fernando Carmona owned and operated Club Peek-a-Boo and the Adult Depot, adult entertainment
businesses in Palm Beach County Florida, from approximately 1996 through May 2005. These
businesses offered nude dancing and prostitution services to paying customers in violation of Florida
statutes. Carmona pled guilty to conspiracy to commit money laundering and interstate
transportation in aid of racketeering enterprises. Pursuant to his plea agreement, Carmona agreed to
forfeit $1 million.

James Graf – Insurance Fraud – forfeits $1,079,790.66

James Graf was found guilty of federal fraud charges for bilking the customers of Employers Mutual
LLC, a company that purported to provide health care coverage to more than 20,000 people across
the United States, but left more than $20 million in unpaid claims for medical services when it was
shut down. Graf, 44, was convicted of one count of conspiracy, five counts of mail fraud, 10 counts
of misappropriation in connection with a health care benefit program, six counts of money laundering
and one count of obstruction of justice.

Defendants in the case collected more than $14 million in premiums purportedly to provide health
care coverage under Employers Mutual’s plans. Graf misrepresented to insurance agents and the
public that Employers Mutual was insured through one or more legitimate insurance companies.
While pertinent state laws require an insurance company to obtain a certificate of authority before
offering insurance coverage, Graf purported to operate Employers Mutual pursuant to the Employee
Retirement Income Security Act (ERISA) of 1974. ERISA allows employers and certain
organizations such as unions to offer health care coverage plans. Such plans may operate without the
prior approval of the United States Department of Labor, the agency that regulates ERISA plans.
Employers Mutual’s claim of ERISA compliance shielded the scheme from the scrutiny of the
California Department of Insurance, which previously had sanctioned Graf for running an
unauthorized health insurance business.

This case was investigated by the Employee Benefits Security Administration of the United States Department of Labor,
 IRS-Criminal Investigation, the United States Postal Inspection Service and the California Department of Insurance,
                         which received assistance from the California Department of Justice.



Horace Keith Farrish – Illegal Gambling – seizure pending forfeiture $5,324,722.80

This seizure is the result of coordinated efforts between IRS-CI and local law enforcement agencies
in Maryland and Virginia. In January of 2004, local police detectives in Maryland began an
undercover operation targeting alleged illegal gambling conducted at Trailways Truck Stop, Circus
Restaurant, and Truck Stop Plaza located in Centreville, Maryland. The officers found and played
illegal gaming devices (slot machines) at the locations and received winning tickets that they cashed
in for $5 each. During the execution of warrants related to the case, the owner of Trailways stated
that a collector for defendant Farrish came to the business on a weekly basis to open the machines,



10          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
read the meter counter and remove the cash. The collector then met with the owner or one of his
partners to review the information on the sheet and to divide the illegal proceeds.

Detectives from Virginia played similar slot machines controlled by Truck Stop Games, LCC in
Virginia. Subsequently, police officers executed a search warrant at the Truck Stop Games LLC
offices in Chester, Virginia. Analysis of the financial records by IRS- CI revealed that Truck Stop
games maintained more than 500 machines at 110 locations on 15 states. Monthly profit and loss
statements showed collections of $6.3 million for seven months between the years 2002 and 2003.




                            2001 Cessna aircraft seized in the Farrish investigation.


                                        IRS- CI 

                   Treasury Forfeiture Fund Weed and Seed Initiative 


Treasury Forfeiture Fund Donates Forfeited Zorro Building to the City of Salisbury, Maryland
for use as a Neighborhood Services Department and Police Substation

In March 2006, the Baltimore office of the Internal Revenue Service Criminal Investigations (IRS
CI) represented the Treasury Forfeiture Fund by presenting a forfeited property, the “Zorro Building”
to the City of Salisbury, Maryland for use as a Neighborhood Services Department and Police
Substation under the Treasury Department’s participation in the federal Weed and Seed Program.
The property was forfeited pursuant to a multi-jurisdictional task force case investigated by IRS-CI
and DEA, with assistance from the FBI and the Wicomico, Dorchester and Somerset County
Narcotics Task Forces of the Maryland State Police.


                                         SECTION I - OVERVIEW                                     11
The investigation leading to forfeiture of the building was directed at Ronald Seldon, his mother,
Yvonne Seldon, his girlfriend Edwina Harmon and Harmon’s mother Sylvia Harmon. Plea
agreements for these individuals reveal that between 1996 and 2003 Ronald Seldon conspired with
numerous individuals to distribute cocaine and cocaine hydrochloride, primarily in Prince George’s
County and counties on the eastern shore of Maryland. During the course of the conspiracy, Ronald
Seldon solicited Edwina Harmon, Sylvia Harmon and Yvonne Seldon to launder his drug proceeds
through their various bank accounts, the purchase of vehicles, including two Mercedes Benz cars, and
the purchase of various Maryland properties.

Throughout the course of the conspiracy, Ronald Seldon provided Edwina Harmon and Yvonne
Seldon with large quantities of cash from his drug proceeds to pay for household bills, private
education costs for the children of Edwina Harmon and Ronald Seldon, credit card purchases and
other expenses relating to their properties and residences. The total amount of laundered funds was
in excess of $1 million. In June 2004, Ronald Seldon was sentenced to 30 years in prison, Yvonne
Seldon was sentenced to 24 months in prison, Edwina Harmon to 18 months in prison and Sylvia
Harmon to 4 months home confinement. All defendants were ordered to forfeit interests in various
automobiles, bank accounts, residences, jewelry and cash used in furtherance of their drug and money
laundering activities or purchased with drug related proceeds.

The Weed and Seed Program is a federal forfeiture program that allows federally forfeited real
properties to be transferred to state and local public agencies so that they can reclaim and rejuvenate
embattled neighborhoods and communities. Weed and Seed uses a two-part strategy to combat
violent crime and to provide social and economic support to communities where high crime rates and
social ills are prevalent. The initiative is designed to “weed” violent criminals and drug dealers from
the neighborhoods, and to prevent re-infestation of criminal activity by “seeding” the neighborhoods
with public and private services, community-based policing and incentives for new businesses.
Weed and Seed was founded on the premise that community organizations, social service providers,
and criminal justice agencies must work together with community residents to regain control and
revitalize crime-ridden and drug-plagued neighborhoods. The Weed and Seed initiative also
encourages cooperation between federal and state and local law enforcement agencies.

The property located at 501 Church Street, Salisbury, Maryland was transferred to the City of
Salisbury for use by the Salisbury Police Department to house the new Neighborhood Services
Department and the Church Street police substation. The property lies in an area where a greater
police presence will increase safety in the neighborhood.




                                                                                    March 9, 2006 - The Treasury Forfeiture Fund donates the Zorro
                                                                                    Building to Salisbury, Maryland as part of the federal Weed and
                                                                                    Seed initiative.




Photograph from Asset Forfeiture News May/June 2006, published by the Asset Forfeiture and Money Laundering Section, Criminal Division, U.S. Department of Justice




12                    TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
Immigration and Customs Enforcement (ICE)
Department of Homeland Security


Trafigura AG – Entry of Goods by False Statement – forfeits $9,937,551.19

On May 25, 2006, as a result of an Oil for Food investigation conducted by Immigration and Customs
Enforcement (ICE), the Southern District of Texas U.S. Attorneys Office filed a criminal Information
charging Trafigura AG, a Swiss corporation, with two counts of violating 18 USC 542, entry of
goods by false statement. The company was convicted of falsely representing to Houston area energy
companies that a total of more than 500,000 barrels of imported Iraqi oil sold to them on two
occasions in 2001 had been obtained in compliance with the Oil for Food Program.

As a result of a plea agreement, Trafigura AG was required to pay a criminal fine of $8 million and to
forfeit $9,937,551.19, pursuant to 18 USC 982(a)(2)(B). In addition, Trafigura AG was required to
pay civil penalties to the United States in the amount of $1.9 million executed through a written
settlement agreement with the Office of Foreign Assets Control (OFAC), U.S. Department of the
Treasury.


Operation Gilded Cage - Yon Suk Pang, Min Sung Kim – Immigration and Money Laundering
Violations – forfeit more than $1 million

Two San Francisco women pleaded guilty to immigration and money laundering violations in June
2006 and agreed to forfeit more than $1 million in criminal proceeds for their role in running two
area brothels uncovered during a multi-agency investigation known as Operation Gilded Cage.

Yon Suk Pang, 56, who owned the Suk Hee Oriental Massage Parlor in San Francisco, pleaded guilty
to an alien harboring conspiracy and a money laundering conspiracy charge. As part of her plea
agreement, Pang agreed to forfeit $1.2 million in proceeds from her criminal activities. The second
defendant, Min Sunk Kim, 50, of Cupertino, pleaded guilty to alien harboring in connection with the
operation of a second San Francisco brothel, the Golden Dragon Spa. As part of her plea agreement,
Kim agreed to forfeit $70,000 in proceeds from her criminal activities.

In pleading guilty, Pang admitted that she employed foreign national females, typically from Korea,
as prostitutes at the Suk Hee. The defendant acknowledged she obtained some of these women
through brokers and paid the brokers for the debts the women incurred, which usually ranged from
$10,000 to $15,000. Pang held the women’s passports until they repaid those debts. It is estimated
the between January 2003 and June 2005, Pang earned more than $1 million as a result of her
ownership of the Suk Hee.

In her guilty plea, Kim admitted that, for an eight-year period beginning in 1997, she owned the
Golden Dragon Spa with various partners. During that time, the Golden Dragon operated as a brothel
and periodically employed illegal alien women from Korea to work as prostitutes. Kim admitted to
concealing those women from immigration authorities by failing to report them as employees to the
government. Prior to her arrest, it is estimated that Kim made $70,000 from operating the Golden
Dragon.

 The charges stem from a multi-agency investigation involving ICE, IRS-CI, the FBI, the San Francisco Police, and the 

                                  State Department’s Diplomatic Security Service. 

                                             SECTION I - OVERVIEW                                                   13
Baltimore’s Kawasaki sushi restaurants – Conspiracy to Commit Alien Harboring and Money
Laundering – forfeit more than $1 million

In April, 2006, two operators of sushi restaurants agreed to forfeit more than $1 million in assets to
the government and pleaded guilty to criminal charges of conspiracy to commit alien harboring and
money laundering in connection with an illegal alien employment scheme. A third defendant
pleaded guilty to the employment of illegal aliens. The ICE investigation found that the operators of
the three Kawasaki restaurants in Baltimore exploited cheap, illegal labor to maximize profits in
order to purchase new homes and luxury vehicles for themselves. Two of the defendants face
sentences of up to 30 years in prison.


Four San Jose residents sentenced for role in operating area brothels – Alien Harboring,
Money Laundering and Tax Violations – forfeit over $700,000

Four defendants linked to the operation of 10 brothels in the San Jose area that employed illegal alien
woman from Asia as prostitutes were sentenced in May 2006 for alien harboring, money laundering,
tax evasion, and conspiracy charges. Xiao Feng Shen pleaded guilty to conspiracy to harbor aliens
and money laundering conspiracy. She was sentenced to 2 years in prison. Shen also agreed to
forfeit more than $70,000 in funds tied to the investigation. Jia Jing Chu pleaded guilty to conspiracy
to harbor aliens. She was sentenced to 18 months in prison, followed by 2 years of supervised
release. Ai-Ching Chang pleaded guilty to conspiracy to harbor aliens and a money laundering
conspiracy. She was sentenced to 30 months in prison and forfeited more than $56,000 tied to the
investigation. Ming Sun pleaded guilty to conspiracy to harbor aliens and money laundering
conspiracy. He was sentenced to 20 months in prison and forfeited more than $125,000 in funds tied
to the investigation.

According to the plea agreements, Shen, Sun, Chu and Chang admitted that in 2004 and 2005, they
employed women as prostitutes in rented residential locations that masqueraded as unlicensed
massage parlors. The defendants further admitted that they rotated the women through the locations
periodically and took measures, such as keeping the apartment curtains closed, to avoid attracting
attention. The defendants provided the aliens with housing, transportation, supplies for use in the sex
trade, and sources of income. The defendants admitted they kept a portion of the proceeds from the
women’s illicit earnings as their own income. The amount of funds forfeited in the case had
exceeded $700,000 as of May 2006, including money from the defendants’ bank accounts as well as
other funds seized during search warrants.

This was a joint investigation with IRC-CI and the San Jose and San Mateo Police Departments, with assistance provided
by the Department of Justice Civil Rights Division



Alliance Payment Technology – Telemarketing Fraud – forfeits over $635,000

Alliance Payment Technology (APT), a division of Intellipay Systems, Inc., an Ontario California
business, forfeited over $635,000 in July 2006. The forfeited proceeds represent the hard-earned
monies of victims throughout the United States defrauded by telemarketing companies who used
APT as a payment processor.



14           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
APT provided processing services to hundreds of telemarketing companies in both the United States
and Canada. During a federal investigation conducted by ICE, APT was discovered to have
processed thousands of transactions for numerous questionable telemarketing companies. During the
investigation, APT admitted knowledge of the illegal source of much of the money due to the high
merchandise return rates for many of their telemarketing clients. Return rates are the percentage of
requested cancellations or returns of orders placed by the consuming public to a company. In the
banking industry, return rates in excess of 5% are clear warning signs of fraudulent activity. In APT’s
case, return rates varied from 50% to up to well over 80%, leading APT to realize that these
particular telemarketing companies were engaged in high pressure or fraudulent practices.

The civil forfeiture action related to the $635,000 was ordered on July 12, 2006. The forfeited
proceeds will be used by the Treasury Forfeiture Fund to make restitution to the victims of the
telemarketing fraud.


Hossein Esfahani – Unlicensed Money Transmitting Business and Illegal Transfer of $4 million
to Iran, an embargoed country – forfeits $481,800

Hossein Esfahani pled guilty in June to operating an unlicensed money transmitting business and
illegally transferring almost $4 million to Iran, an embargoed country. In June 2005, Esfahani was
indicted on 193 counts for operating an “Hawala” and illegally transmitting $3,918,000 to Iran
between 2001 and 2005, in violation of Presidential orders issued under the International Emergency
Economic Powers Act.

“Hawalas” are a form of alternative money-transmitting business, common in many Middle Eastern
and African countries, through which funds can be transferred between parties based on ties of
kinship and individual trust. There is not an immediate physical or electronic transfer of funds.
Money changers, also known as “hawaladars,” physically receive cash or funds in one country and
then correspond with hawaladars in another country to dispense the identical amount minus fees or
commissions to a designated bank account. These arrangements can be exploited by terrorist groups
or other criminal organizations intending to transfer large sums of money across international borders
undetected. Under the plea agreement, Esfahani is obligated to a forfeiture judgment of $481,800.
                                 This was a joint ICE and FBI investigation.



Sheikh Mohammed Khurshan – Unlicensed Money Remitting Business, attempted Loan Fraud,
Structuring – faces sentencing that includes a $400,000 forfeiture

In May 2006, Sheikh Mohammed Khurshan, a naturalized U.S. citizen from Bangladesh, pled guilty
in the Eastern District of Pennsylvania to one count of operating an unlicensed money remitting
business, one count of attempted loan fraud, and one count of structuring financial transactions.
Khurshan was the president and owner of Medina Tax and Travel and the appointed accountant of the
Majid Al-Jamia mosque in Philadelphia.

An ICE investigation revealed that Khurshan often structured deposits of cash in $9,000 increments
every few days into local Philadelphia banks in order to evade federal $10,000 currency transactions
reporting (CTR) requirements. When a pertinent account balance reached $20,000 to $40,000,
Khurshan would conduct a large wire transfer depleting the account. Most of the funds were sent to a
company in Singapore. Using these techniques, Khurshan transmitted more than $900,000 overseas,
although he was not licensed in the state of Pennsylvania to operate a money transmittal business.
                                        SECTION I - OVERVIEW                                        15
When sentenced, Khurshan faces a maximum sentence of 40 years in prison, 5 years supervised
release, a fine of $1.5 million, and $400,000 in asset forfeiture.


Ko-Suen Moo – Covert Agent of People’s Republic of China; Conspiracy to Broker and Export
Defense Articles in Violation of Title 18, Obstruction and Bribery – forfeits $350,000

Ko-Suen Moo, of Taiwan, was sentenced July 24, 2006, on charges of being a covert agent of the
People’s Republic of China; conspiracy to broker and to export defense articles to the People’s
Republic of China, including one F-16 aircraft engine, Blackhawk helicopter engines, cruise missiles
and air-to-air missiles; and bribery of a public official.

According to documents and statements made in court after his arrest on the underlying arms charges,
Moo engaged in conversation with two inmates at the Federal Detention Center about his ability to
bribe his way out of jail and obtain dismissal of the underlying arms charges. Specifically, Moo
agreed to pay a bribe to an Assistant United States Attorney and a federal judge for his supposed
release from custody and dismissal of the pending charges. Unbeknownst to Moo, however, the two
inmates had contacted law enforcement and alerted them to this plan.

This separate obstruction investigation led to the return of a superseding indictment charging Moo
with, among other things, bribery of a public official. Moo actually wire transferred $199,985 as part
of a $500,000 payoff to an unnamed public official in anticipation of his supposed release and
dismissal of the charges. Moo was sentenced to 78 months’ imprisonment, a $1,000,000 fine, three
years of supervised release, and ordered to forfeit his interest in approximately $350,000 that was
seized during the investigation of this case.


Eric Pinno – Distribution and Possession with Intent to Distribute Cocaine – forfeits $442,338

Eric Pinno, age 41, of Pittsburgh, Pennsylvania was sentenced on August 1, 2006, to 12 years in
prison, followed by 5 years of supervised release for conspiracy to distribute and possession with
intent to distribute cocaine. Pinno will be ordered to forfeit $442,338 pursuant to this criminal
activity. According to the facts presented at his guilty plea in June 2006, from 2004 through 2005,
Steven Josephs supplied Eric Pinno with multiple kilograms of cocaine, which Pinno then distributed
to buyers in the Pittsburg area. The cocaine was transported across the country from California to
Maryland by individuals who drove tractor trailers and other vehicles. The drivers carried U.S.
currency in the opposite direction from Maryland to California. During the conspiracy, Pinno
distributed between 50 kilograms and 150 kilograms of cocaine. Law enforcement agents seized
$442,338 in U.S. currency from Pinno during the course of the investigation. They also seized a
handgun during a search of Pinno’s house.


Pilar Navarro – Illegally Transporting U.S. Currency - $2 million seized

In October 2005, ICE agents seized more than $2 million and arrested and charged Pilar Navarro of
Brownsville, Texas with illegally transporting U.S. currency. Navarro, 30, appeared in federal court
on charges that he was driving a tractor-trailer and carrying two suitcases full of money. As he pulled
over at a nearby residence in Santa Rosa, Texas, Cameron County Sheriff’s deputies and ICE agents
approached Navarro at the parked trailer. Navarro consented to a search of his vehicle. During the

16         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
search, ICE special agents and sheriff’s deputies discovered and seized more than $2 million in U.S.
currency concealed inside two black suitcases.




 Brownsville Texas - $2 million seized, hidden in two black suitcases in a trailer-truck. Driver charged with
 illegally transporting U.S. currency in accordance with the U.S. Patriot Act of 2001.




                           ICE Returns Prized Works of Art to Sweden


ICE and FBI Recover Stolen Renoir and Rembrandt Masterpieces

ICE and FBI agents, detectives from the Los Angeles County Sheriff’s Department and the U.S.
Attorneys Office in Los Angeles, members of the Organized Crime Task Force, working with
investigators in Stockholm, Sweden and Copenhagen, Denmark, announced in September 2005, the
recovery of major works of art that were stolen five years previously from a waterfront museum in
Stockholm, Sweden.

Members of the Organized Crime Task Force launched an operation targeting the international theft
ring responsible for the 2000 robbery from the Stockholm Museum. During the course of the
investigation, they worked closely with law enforcement overseas including the Copenhagen City
Police, the Danish National Police and the Stockholm County Police.

Renoir’s “Young Parisian” was recovered in Los Angeles in early 2005 and authenticated by the
Curator of the Getty Museum. Rembrandt’s “Self Portrait,” was recovered in September of the same
year. The Stockholm County Police had previously recovered Renoir’s “Conversation” in July 2001.

Apart from the high monetary value of the recovered works, estimated at $45 million, the paintings
are also national treasures of Sweden.


                                              SECTION I - OVERVIEW                                              17
 On December 23, 2000, three armed bandits brandishing machine guns robbed the Swedish National Museum in
 Stockholm, Sweden, of three paintings: Auguste Renoir’s “Young Parisian,” and “Conversation;” and Rembrandt
 Harmensz van Rijn’s “Self Portrait” (c. 1630). The robbers escaped with the paintings on a boat moored near the
 museum while employing distracting tactics, including tire spikes and diversionary car bombs in other parts of the
 city.



             ICE Returns Forfeited Monies to Victims of Sweepstakes Fraud


                                                   Project Colt


Formed in the 1990s to combat telemarketing fraud in both countries, Project COLT includes the
Royal Canadian Mounted Police, ICE, the FBI and the U.S. Postal Inspection Service, among
other law enforcement and government agencies. The Project returns monies to victims of fraud.


Project Colt – Victims Bilked by Telemarketing Fraud – Get Some of their Money Back

1.	 U.S. Immigration and Customs Enforcement (ICE) special agents returned $5,000 to an elderly
    local resident in Helena, Montana on June 16, 2006, which was part of the money she was bilked
    out of by telemarketing con artists operating from Canada. The money was returned by a multi-
    agency joint U.S.- Canada initiative called Project COLT.

     The Helena woman was bilked out of more than $20,000 by the so-called Canadian lottery or
     sweepstakes scam. This scam occurs when con-artists telephone innocent victims to tell them
     they have won a lottery jackpot or other substantial prize. The caller tells the person that in order
     for the prize money to be released, they must first pay a Customs duty, a tax, or a fee. Typically,
     the “fee” is several thousand dollars. The so-called winners are then asked to send a check or to
     wire the fee to a bank account or foreign mailbox.




18           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
   The con artist assures the victim that, once the fee has been received, the prize money will be
   released. These con artists are expert at pressuring their victims by telling them they only have a
   limited amount of time to send in the fee. If they miss the deadline, they are told, the winnings
   will be returned to the “jackpot.” Often, the victims are given a phony award number and
   telephone number to contact lottery officials. Inevitably, the prize money never arrives.

2.	 In August 2003, ICE agents in Tucson returned $14,620 to a retired Army Brigadier General.
    The 86 year old Tucson resident had been victimized in a version of the long-running
    telemarketing scam.

3.	 In October 2005, ICE agents in Mountain Home, Idaho, returned $7,500 to a local resident, a
    retired Air Force veteran. He had been told that he had won a significant amount of money; all he
    needed to do was “pay tax on the winnings.” The con artists said they would even send him a
    check for the taxes owed first, for which he could later reimburse them. The victim received the
    check, which looked genuine, and deposited it in his bank. He promptly mailed a reimbursement
    money order to the supposed Canadian officials con-artists only to be notified five days later that
    the scammers’ check had bounced.

4.	 In January 2006, ICE agents in Cherokee Village, Arkansas, returned $16,000 to a 93-year old
    victim of the telemarketing scheme.


Customs and Border Protection (CBP)
Department of Homeland Security


CBP Officers Seize 1,600 Pounds of Marijuana Hidden behind Pallets of Tomatoes

CBP officers at the Mariposa Commercial Facility stopped an attempt to smuggle more than 1,600
pounds of marijuana hidden behind pallets of tomatoes in a tractor-trailer in March 2006. The
officers, performing a routine screening of all incoming shipments, noticed discrepancies and
decided to inspect the truck and contents. “Rocksey,” a narcotics detector dog, alerted to the
presence of narcotic odor. The pallets of tomatoes were removed from the trailer and bundles of
marijuana were found hidden behind the pallets. A total of 67 bundles were found, weighing
approximately 1, 641 pounds. Street value of the marijuana was estimated at $1.2 million.

The 2002 Volvo T3 tractor and trailer were seized along with the narcotics. The driver was turned
over to ICE agents.


CBP Officers Discover $859,880 in Undeclared Currency, Forfeited

Early in calendar year 2006, CBP officers in San Ysidro were conducting a southbound operation on
I-5, west of the port of entry. A vehicle was stopped and the occupants stated that they were headed
to Mexico. They both stated that they were not carrying more than $10,000. During an x-ray of the
vehicle, an abnormality was visible on both quarter panels of the vehicle. A total of 67 bundles were
discovered and removed from the right and left quarter panels of the vehicle. The sum of $859,880 in
                                        SECTION I - OVERVIEW                                      19
various denominations was seized and on February 16, 2006, the currency was forfeited to the
Treasury Forfeiture Fund.


CBP Officers Discover $218,377 in the Gas Tank, Forfeited

 During a border inspection conducted in October 2005, fifteen vacuum-sealed bags containing
$218,377 in U.S. currency were found in a vehicle gas tank and seized. On January 9, 2006, the
currency was forfeited to the Treasury Forfeiture Fund.


CBP Officers Discover $439,665 in Undeclared Currency, Forfeited

In October 2005 at the Eagle Pass port of entry, a vehicle search revealed $439,665 in US currency in
heat-sealed bags concealed within a speaker box located under the rear seat. On January 19, 2006,
the currency was forfeited to the Treasury Forfeiture Fund.


U. S. Secret Service
Department of Homeland Security


Fugitives Rent Homes, Take over Identity of Real Owner, $239,856.72 seized

In a case that originated in 2004 from information received from a local Sheriff’s Department, two
subjects were identified as renting single family homes and taking over the identity of the true owner.
In August 2004, in the Northern District of Georgia, arrest warrants were issued for the subjects for
conspiracy, stolen identification documents, mail and wire fraud, money laundering and structuring,
transport of scheme proceeds in interstate commerce and social security number fraud.

The subjects used elaborate schemes to avoid capture, including obtaining state-issued and
counterfeit driver licenses and identifications in stolen identities, obtaining addresses in these stolen
identities and using social security numbers of children. During the course of the investigation, a
federal agent was able to identify several bank accounts used by both subjects to secure the funds
they received during their criminal activity. Five bank accounts with a total of $239,856.72 in funds
were seized and the investigation continues.


Owner of the Currency Exchange, LLC charged with Uttering Counterfeit and Money
Laundering, $299,091 Seized

This case originated in August 2004 when officials from the U.S. Bureau of Engraving and Printing
(BEP) contacted the Secret Service regarding the receipt of suspiciously high amounts of mutilated
U.S. currency from a single source. BEP officials advised that an individual, owner of the Currency
Exchange, LLC, had previously redeemed $2.8 million in mutilated currency. The subject
subsequently presented an additional $424,993 in mutilated currency to the BEP for redemption.

20         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
Analysis by the Secret Service determined that $125,902 was counterfeit or non-redeemable. Further
investigation tied the funds to a larger Peruvian narcotics money laundering operation. On December
21, 2005, Secret Service agents seized $299,091 from the subject and the Currency Exchange, LLC in
New Orleans. The seizure was based on 18 USC 472, Uttering Counterfeit US Currency and 18 USC
1957, Money Laundering.


Hong Kong Shanghai Banking Corporation Employee Embezzling, $1,082,051 Seized

In March 2005, the Fraud Department Manager for the Hong Kong Shanghai Banking Corporation
(HSBC) notified the Secret Service of an ongoing investigation regarding an HSBC employee. The
manager advised that the subject was under suspicion for transferring approximately $2,013,500 from
HSBC accounts into accounts under her control. The subject was arrested, interviewed, and admitted
to embezzling the money from HSBC accounts into accounts controlled by her. As a result of her
arrest and interview, the Secret Service seized assets totaling $1,082,051, consisting of bank
accounts, investment funds, vehicles, furniture, paintings, jewelry and cash in lieu of a residence in
Las Vegas.


Corporate Controller at Jabil Global Services - $200,000 worth of property seized and a Lis
Pendens placed on his home for seizure

The Tampa Financial Crimes Task Force began investigating the corporate controller at Jabil Global
Services (JGS), a subsidiary of Jabil Circuit, in March 2005. Jabil Circuit is the 5th largest Electronic
Manufacturing Services (EMS) provider in the world with revenues of $7.5 billion in 2005. As the
result of a corporate realignment, the subject was left with authority to write checks up to $50,000 on
his signature alone. He allegedly created fictitious companies to which he wrote checks, requesting
them through an accounting computer system that caused a wire to be sent between St. Petersburg,
Florida and Alpharetta, Georgia (wire fraud.) Fortunately, each request was logged. The log
revealed over 450 checks totaling in excess of $3.8 million. Further investigation determined that
over 180 of the checks (over $1.75 million) were fraudulent.

The money was used by the subject to support a lavish lifestyle. Large payments were made toward
the mortgage on his $500,000 home and several renovations were made to the property using Jabil
company checks. In addition, he used company checks to pay off his 2004 350 Z Nissan sports-car, a
2004 Nissan Titan pickup truck, a 2004 Yamaha motor scooter, and he rebuilt a 1991 Nissan 300Z
sports-car for his daughter. The task force obtained and executed a search and seizure warrant to the
subject’s home and storage unit. Using the receipts obtained from the various companies, the task
force seized approximately $200,000 worth of property and placed a lis pendens on his house for
seizure.




                                        SECTION I - OVERVIEW                                          21
U. S. Coast Guard
Department of Homeland Security

The U.S. Coast Guard continues its close working relationship with the legacy Customs bureaus and
functions in a member-bureau capacity. Fund management is working to gain reimbursement of
Coast Guard expenses incurred in regard to Department of Justice forfeitures as well. The Coast
Guard maintains a close working relationship with the Drug Enforcement Administration (DEA) of
the Department of Justice, assisting with drug boat interceptions on the high seas which are then
turned over to the Department of Justice for prosecution.


Peruvian Fishing Vessel Ceci Seized with over 5 Tons of Cocaine Onboard

On July 28, 2006, the U.S. Coast Guard Cutter (CGC) HAMILTON seized over 10,300 pounds of
cocaine from the Peruvian fishing vessel Ceci. The CGC HAMILTON launched its small boat with
Coast Guard law enforcement personnel aboard to question the master on the nationality of the vessel
and the purpose of its voyage. In the process of questioning, boarding team members noticed a large
number of what appeared to be bales of contraband in plain view on the fantail of the Ceci. After the
Peruvian government granted the Coast Guard permission to board and search the vessel, a sample
bale was tested using a Narcotic Identification Kit that resulted in a positive test for cocaine. A total
of 200 bales were seized and all 10 Ceci crew members were detained on the CGC HAMILTON until
they were transferred to Peruvian law enforcement. Intelligence from the Ceci investigation later led
to the arrest of 3 other suspected narcotics traffickers and the seizure of two other Peruvian fishing
vessels.




                         Peruvian fishing vessel Ceci boarded by CGC HAMILTON.


22         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
 200 bales of cocaine
 seized from the fishing
 vessel Ceci.




Costa Rican Flag Ship Princesa De Drake – Seized for Contraband Cocaine

In early December 2005, the fishing vessel Princesa De Drake was boarded by the U.S. Coast Guard
in accordance with the U.S. and Costa Rican Bilateral Agreement. During the initial safety
inspection, the boarding team found numerous burlap sacks in the aft and forward fish holds. There
were 66.5 bales of cocaine on the vessel. The vessel was seized, along with the contraband and 8
personnel were detained.




                                                                   Bales of cocaine seized from the
                                                                   Costa Rican fishing vessel
                                                                   Princesa De Drake following a
                                                                   Coast Guard boarding in
                                                                   December 2005.




                                     SECTION I - OVERVIEW                                             23
The United States and Costa Rica signed a Bilateral Agreement which was ratified in October 1999
to help suppress the flow of illicit drugs through the coastal regions of Costa Rica. The accord
commits the two countries to work together in a variety of ways to suppress drug trafficking by sea
and air.

Drug trafficking is not only a problem for the United States. Consumption of drugs in Costa Rica,
particularly crack cocaine, was rising sharply there in the late 1990s. Drug trafficking is also
associated with money laundering and other corruption. Drugs such as cocaine are produced in South
America and are transported through a zone that is six million square miles in size. The transit zone
includes the Caribbean Sea, the Atlantic Ocean and the Eastern Pacific Ocean. The Interagency
Assessment of Cocaine Movement (IACM) estimates that 90% of all cocaine departing South
America travels towards the United States via non-commercial maritime conveyers, primarily via the
Eastern Pacific and Eastern Caribbean Sea.

The U.S.-Costa Rica agreement provides for increased intelligence sharing and coordination in
counter-drug activities. It permits Costa Rican law enforcement personnel to embark on U.S. vessels
as “shipriders” and authorizes U.S. vessels to pursue suspected traffickers in Costa Rican territorial
and international waters. Similarly, U.S. law enforcement personnel are permitted to be shipriders on
Costa Rican vessels, to provide advice on pursuit and boarding of suspect vessels and to coordinate
with U.S. elements. In exceptional “hot pursuit” situations, the agreement allows U.S. law
enforcement vessels to pursue, stop and secure a suspect vessel while awaiting the arrival of Costa
Rican authorities.

The Government of Costa Rica has primary jurisdiction over all suspects apprehended in its territorial
waters, and assets seized in Costa Rican territory will be disposed of in accordance with the laws of
Costa Rica. The United States has comprehensive bilateral maritime counter-drug agreements with
the governments of other Caribbean nations including: Dominican Republic, Belize, Dominica,
Nevi/St. Kitts, Antigua/Barbuda, St. Vincent/Grenadines, St. Lucia, Grenada and Trinidad and
Tobago.


Ecuadorian Flag Ship Magallanes – Scuttled by Crew, Contraband and Evidence Seized

On December 11, 2005, the U.S. Coast Guard personnel attached to a U.S. Naval 567-foot Guided
Missile Cruiser seized almost 15,000 pounds of cocaine from the 80-foot Ecuadorian fishing vessel
Magallanes with seven people aboard. The government of Ecuador granted permission for the
boarding, which revealed 5,900 bricks that tested positive for cocaine for a total of 14,990 pounds of
contraband. The vessel stayed afloat long enough to rescue the crew and to remove the contraband
and other evidence from the Magallanes before she sank.




24         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
                       Cocaine contraband seized
                       by the U.S. Coast Guard
                       from the Ecuadorian fishing
                       vessel Magallanes.




SECTION I - OVERVIEW                                 25
Program and Fund Highlights

The Treasury Forfeiture Fund is a “special receipt account.” Such accounts represent federal fund
collections earmarked by law for a specific purpose. The enabling legislation for the Treasury
Forfeiture Fund (31 U.S.C. § 9703) defines those purposes for which Treasury forfeiture revenue may
be used.

Once property or cash is seized, there is a forfeiture process. Upon forfeiture, seized currency,
initially deposited into a suspense account, or holding account, is transferred to the Fund as forfeited
revenue. Once forfeited, physical properties are sold and the proceeds are deposited into the Fund as
forfeited revenue. It is this forfeiture revenue that comprises the budget authority for meeting
expenses of running Treasury’s forfeiture program.

Expenses of the Fund are set in a relative priority so that unavoidable, or “mandatory” costs are met
first as a matter of policy. Expenses may not exceed revenue in the Fund. The Fund has several
different spending authorities as declared in the financial plan. Each of them is described below.

Mandatory Authority

The mandatory authority items are generally used to meet “business expenses” of the Fund, including
expenses of storing and maintaining seized and forfeited assets, valid liens and mortgages,
investigative expenses incurred in pursuing a seizure, information and inventory systems, and certain
costs of local police agencies incurred in joint law enforcement operations. Following seizure,
equitable shares are paid to state and local law enforcement agencies that contributed to the seizure
activity at a level proportionate to their involvement.

It is a strategic goal of the Fund to emphasize and monitor high impact forfeitures. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives. These authorities
include the Purchase of Evidence and Information, expenses associated with Joint Operations,
Investigative Expenses Leading to Seizure, and Asset Identification and Removal Groups. In recent
years, funding provided to computer forensic investigative tools has yielded high impact results.

Secretary’s Enforcement Fund

The Secretary’s Enforcement Fund (SEF) is derived from equitable shares received from the Justice
Department’s forfeiture fund for work done by Treasury law enforcement bureaus leading to Justice
forfeitures. SEF revenue is available for federal law enforcement purposes of any Treasury law
enforcement organization or law enforcement bureau that participates in the Treasury Forfeiture
Fund. In FY 2006, the Fund allocated $18.2 million in SEF spending to the law enforcement
agencies. The actual expense for FY 2006 was $25.6 million.

Super Surplus

Super Surplus represents the remaining unobligated balance after an amount is reserved for Fund
operations in the next fiscal year. Super Surplus can be used for any federal law enforcement
purpose. The Fund declared a Super Surplus in the amount of $31.15 million for FY 2006. The
actual expense for FY 2006 was $19.1 million.


26         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
Program Performance

Strategic View

Fund management continues to focus on strategic cases and investigations that result in high-impact
forfeitures. We believe this approach affects the greatest damage to criminal organizations while
accomplishing the ultimate objective – to disrupt and dismantle criminal activity. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives including
Purchase of Evidence and Information, expenses associated with Joint Operations, Investigative
Expenses Leading to Seizure, Asset Identification and Removal teams and state-of-the-art Computer
Forensics capability.

In addition, the Fund continues to support at near-record levels the sharing of federal forfeitures with
the state and local and foreign governments that contributed to the successful seizure and forfeiture
activity of the Fund. The Fund provided over $85 million toward equitable sharing expenses in FY
2006, which although down from over $100 million provided in FY 2005 represents over 30 percent
of the regular mandatory expense budget allocation. The actual expense for FY 2006 was $89.8
million. These are critical resources afforded by policy of the Treasury Forfeiture Fund to protect
and preserve the valuable working relationships between our federal law enforcement bureaus and the
critically important state, local and foreign law enforcement agencies that work with them in an
investigative capacity day-in and day-out.

Strategic Mission and Goal

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by Treasury law enforcement bureaus to disrupt and dismantle criminal
enterprises. The goal of the Treasury Forfeiture Fund is to support the Department of the Treasury’s
national asset forfeiture program in a manner that results in federal law enforcement’s continued and
effective use of asset forfeiture as a high-impact law enforcement sanction to disrupt and dismantle
criminal activity. To achieve our mission and goal, the program must be administered in a fiscally
responsible manner that seeks to minimize the administrative costs incurred, thereby maximizing the
benefits for law enforcement and the society it protects.

Multi-Departmental Fund

The Treasury Forfeiture Fund continued in its capacity as a multi-Departmental Fund in FY 2006,
representing the interests of law enforcement components of the Departments of Treasury and
Homeland Security. As the result of the multi-Departmental status, FY 2006 included some
continuing management challenges and the need to assess evolving policies of the reorganized
bureaus against the broad management interests of the Treasury Forfeiture Fund. In the midst of this
period of growth and change, the Fund’s family of law enforcement bureaus continued their hard
work of federal law enforcement and the application of asset forfeiture as a sanction to bring
criminals to justice.

FY 2006 continued a pattern of robust revenue years with revenue from all sources exceeding $285
million.    As we enter fiscal year 2007, the Fund remains focused on support for strategic
investigative initiatives that will have the greatest impact on national and international criminal


                                        SECTION I - OVERVIEW                                         27
enterprise including valuable training and investigative expense funding which emphasizes high
impact cases.


Performance Measure

In FY 2006, the Fund measured performance through the use of the following performance measure:
Percent of forfeited cash proceeds resulting from high-impact cases. This measures the percentage of
forfeited cash proceeds resulting from high-impact cases (those with currency seizures in excess of
$100,000). Focusing on strategic cases and investigations which result in high-impact seizures will
affect the greatest damage to criminal organizations while accomplishing the ultimate objective – to
disrupt and dismantle criminal activity.

Results

The Fund performance measure and result for FY 2006 is as follows:


                                                       FY 2005           FY 2006           FY 2006
           Performance Measure                          Actual            Target            Actual

Percent of forfeited cash proceeds resulting from        81.0%              75%              72.9%
high-impact cases

A target of 75 percent high-impact cases was set for FY 2006. This is a fixed target for the Fund,
designed to afford our law enforcement bureaus the opportunity to undertake smaller seizure activity
that is important to the overall federal law enforcement mission. The final percentage for FY 2006
was 72.9 percent.

This measure is calculated by dividing the total amount of forfeited cash proceeds from cases greater
than $100,000 by the total amount of forfeited cash proceeds for all cases.




28         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
Financial Statement Highlights

The following provides a brief explanation for each major section of the audited financial statements
accompanying this report for the fiscal year ended September 30, 2006.

These statements have been prepared to disclose the financial position of the Fund, and its net costs,
changes in net position, budgetary resources, and the reconciliation of net costs to budgetary
obligations pursuant to the requirements of the Chief Financial Officers Act of 1990 and the
Government Management Reform Act of 1994 (GMRA). While the financial statements have been
prepared from the books and records of the Fund in accordance with the formats prescribed by the
Office of Management and Budget, the statements are different from the financial reports used to
monitor and control budgetary resources that are prepared from the same books and records and are
subsequently presented in federal budget documents. Further, the notes to the financial statements
and the independent auditor’s opinion and report on internal controls are also integral components to
understanding fully the financial highlights of Fund operations described in this chapter.

Statements: Changes in Net Position

Follows are brief highlights from the Statements of Changes in Net Position for FY 2006 and 2005.

Net Position – End of Year. For FY 2006, the Net Position for the Fund at the end of the year, an
indicator of the future capability to support ongoing operations of the Fund, totaled $236.8 million
versus $255.3 million at the end of FY 2005. Both years closed with a strong and viable net position
with annual revenue reaching past the forecasted $250 million program level each year.

Total Gross Non-Exchange Revenues. This line item on the Statements of Changes in Net Position
is the best indicator of regular “business-type” income of the account on an annual basis. Fund
Management generally forecasts between $200 million and $250 million for the Fund from regular
seizure and forfeiture activities of our participating bureaus. For FY 2006, the Fund closed with
$257.2 million in Gross Non-Exchange Revenues as compared to FY 2005 with $313.5 million, a
decrease of 18 percent from the FY 2005 level. An unusually large case during FY 2005 contributed
to this difference.

Proceeds from Participating with other Federal Agencies. This line item on the Statements of
Changes in Net Position indicates revenue earned from the participation of Treasury Forfeiture Fund
law enforcement bureaus in the seizures leading to forfeiture of bureaus that participate in the
Department of Justice Assets Forfeiture Fund or with the forfeiture fund of the U.S. Postal Service
(Postal Service). It is noted that this category of revenue is recognized when received on deposit by
the Treasury Forfeiture Fund. Therefore, there is no accrual recorded on the Fund’s financial
statements for this category of revenue.

As of the close of FY 2006, Treasury Forfeiture Fund bureaus earned a total of $14.1 million in
revenue from participation in the seizures leading to forfeiture of the Justice and Postal Service
forfeiture funds as compared to a total of $22.3 million during FY 2005. Fund Management
continues to work with the Department of Justice to identify the basis for delays and/or downward
adjustments to percentages associated with Reverse Asset Sharing payments to the Treasury


                                       SECTION I - OVERVIEW                                        29
Forfeiture Fund. This revenue affords Treasury Management significant funding flexibilities for our
participating agencies as the authority is broad and not confined to funding program costs but can be
used for any law enforcement purpose of our participating bureaus. Significant projects will continue
to be funded in FY 2007 if anticipated revenue is received early enough in the fiscal year.

Net Cost of Operations. For FY 2006, the Net Cost of Operations totaled $141.3 million, slightly
up from $135.2 million in FY 2005.

Investment Interest Income. The Fund is authorized to invest cash balances in Treasury securities.
As of September 30, 2006, investments totaled $672.2 million, up from $499.9 million invested as of
September 30, 2005. Given the increase in interest rates on Treasury securities over prior years,
investment income totaled $26.8 million in FY 2006 as compared to $13.3 million in FY 2005.

Equitable Sharing with State and Local Governments, and Foreign countries. Each year, the
Fund pays tens of millions of dollars to state and local law enforcement agencies, and foreign
governments, for their participation in seizures that lead to forfeitures of the Treasury Forfeiture
Fund. State and local law enforcement agencies can use these resources to augment their law
enforcement budgets to fight crime in their jurisdictions. Without these funds, budgets of the local
municipalities would be taxed to provide these important resources or the need would go unmet.
During FY 2006, the Fund shared a total of $81.3 million with state and local law enforcement
agencies, and over $0.7 million with foreign countries. This compares with $75.7 million shared with
state and local law enforcement agencies during FY 2005, and another $4.2 million with foreign
countries in FY 2005.

Victim Restitution. During FY 2006, the Fund paid restitution to victims in the amount of $1.3
million as compared with $2.1 million in FY 2005.

Summary of Statements of Changes in Net Position. The Fund closed with a strong net position in
FY 2006. Management will continue to emphasize high-impact cases by participating law
enforcement bureaus. The FY 2006 performance with forfeiture revenue earnings of over $285
million from all sources and a high rate of high-impact cases is truly a credit to the dedicated law
enforcement personnel of the Treasury Forfeiture Fund participating bureaus.

Statements: Net Cost

Costs of the Forfeiture Program – Intra-governmental. After revenue is applied toward policy
mandates such as equitable sharing, shown in the Statements of Changes in Net Position as negative
revenue or applied non-exchange revenue, the remaining financing supports the law enforcement
activities of the Fund and pays for the storage of seized and forfeited property and sales associated
with the disposition of forfeited property.

On the Statements of Net Cost, the Net Cost of Operations increased to $141.3 million in FY 2006,
slightly up from $135.2 million in FY 2005.

Intra-governmental Costs less Secretary’s Enforcement Fund and Super Surplus Expenses.
This net figure represents the amounts incurred by participating bureaus in running their respective
forfeiture programs. Secretary Enforcement Fund Expenses generally represent expenses that while
key to the law enforcement bureau are not costs of running the forfeiture program itself.


30         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
National Seized Property Contract. One of the largest program costs of the Fund is the storage,
maintenance and disposal of real and personal property. During FY 2006, this function was
performed by EG&G Technical Services, a private firm under multiple contracts to CBP. There is
one contract for the custody and maintenance of real properties and a separate contract for general
property of the program. During the year, both of these contracts were awarded to EG&G Technical
Services. Fund management took action to move the Real Property Contract from the auspices of
CBP to direct management by the Executive Office for Asset Forfeiture. Similarly, in FY 2007,
management will move the general property contract from CBP to management by the Executive
Office for Asset Forfeiture in Main Treasury. The new general property contract was awarded early
in FY 2007. In FY 2006, expenses for the national property contracts totaled just over $52.7 million,
down from $56.9 million in FY 2005. This is partially attributable to the policy decision to restrict
the amount of funding available for allocation to the general property contract administered by CBP.

Statements: Balance Sheet

Assets, Liabilities and Net Position

Total assets of the Fund increased in FY 2006 to $863.7 million, up from $776.0 million in FY 2005,
an increase in asset value of nearly 11.3 percent. If seized currency, which is an asset in the custody
of the government but not yet owned by the government, is backed out of both figures, the adjusted
total assets of the Fund increased to $399.0 million in FY 2006, slightly up from $395.0 million in
FY 2005. During FY 2006, total liabilities of the Fund increased to $626.9 million, up from $520.7
million in FY 2005.

The Cumulative Results of Operations, i.e., retained earnings, decreased slightly at the end of FY
2006 to a total of $236.8 million, down from $255.3 million at the end of FY 2005.

Financial and Program Performance -What is needed and planned. OMB Circular A-136,
Financial Reporting Requirements, requires that agencies include an explanation of what needs to be
done and what is being planned to improve financial or program performance.

Auditors’ Findings

FY 2006 Audit. The Fund’s independent auditors have given the FY 2006 financial statements an
Unqualified Opinion and determined that there are no material weaknesses for the Fund’s financial
statements. The one material weakness identified for FY 2005 has been resolved. In addition, only
one Reportable Condition remains regarding the recording of indirect overhead expenses of property
to the line item level. This is a long-standing condition that Fund Management has worked to resolve
for the real property contract though the remedy has not been implemented by Customs and Border
Protection as of the close of FY 2006. The new general property contract was recently awarded and
corrective action can proceed to remedy this deficiency. Fund Management anticipates that this
second tier condition will be resolved in FY 2007.

Reportable Condition: In fiscal year 2006, the auditors of the Fund’s financial statements reported
one Reportable Condition associated with the Fund’s internal controls: indirect asset specific
expenses are not recorded and accounted for to the line item level by the Fund.



                                       SECTION I - OVERVIEW                                         31
Asset Specific Expenses: Fund Management will continue to work toward the capture of indirect
asset specific expenses. The accounting system of the Real Property Contractor is capable of
capturing and reporting both direct and indirect costs. However, to capture this data for the Fund’s
financial statements, Customs and Border Protection’s SEACATS system requires additional
programming. To date, this programming has not been completed although the contractor-proposed
remedy has been identified. The award of the new general property contract has been completed and
corrective action can proceed to distribute indirect overhead costs to general property. Management
will continue to work with participating bureaus to improve the capture of all expense data to the
asset level.

Summary of Financial Statement Highlights

Net Position. To summarize, Fund management concluded FY 2006 “in the black,” with the
necessary resources to commence the business of the asset forfeiture program for FY 2007. Fund
management does not expect to declare a Super Surplus from FY 2006 at this time until costs of the
new general property contract and transition are better defined. However, this decision can change at
any time during the fiscal year.


A Look Forward


Fund management will continue to work with our large and diverse array of federal law enforcement
bureaus as they undertake increasingly sophisticated methods and global effort to secure the financial
and commercial markets of the nation and the world given the interdependence of financial systems.
In addition, our bureaus support immigration enforcement that is designed to identify illegal
smuggling to deter its impact on the nation’s financial infrastructure and terrorism initiatives and to
ensure that human smugglers do not harm unsuspecting victims keen on seeking a new if illegal start
in the United States.      Emphasis will continue to be placed on ever-evolving state-of-the-art
investigative techniques, major case initiatives and training to support these areas of emphasis. This
has and will continue to be the key to the growing success and law enforcement reach of the Treasury
Forfeiture Fund.

Limitations of the Financial Statements. As required by OMB Circular A-136, Fund management
makes the following statements regarding the limitations of the financial statements:

•	 The financial statements have been prepared to report the financial position and results of
   operations of the entity, pursuant to the requirements of 31 USC § 3515(b).

•	 While the statements have been prepared from the books and records of the entity in accordance
   with the formats prescribed by OMB, the statements are in addition to the financial reports used
   to monitor and control budgetary resources which are prepared from the same books and records.

•	 The statement should be read with the realization that they are for a component of the U.S.
   government, a sovereign entity. One implication of this is that liabilities cannot be liquidated
   without legislation that provides resources to do so.



32         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
     SECTION II 


FINANCIAL STATEMENTS 

                    Independent Auditor's Report on Financial Statements


Inspector General
United States Department of the Treasury
Washington, D.C.


We have audited the Principal Statements (balance sheets and the related statements of net cost,
changes in net position, budgetary resources and financing, hereinafter referred to as “financial
statements”) of the Department of the Treasury Forfeiture Fund (the Fund) as of and for the years
ended September 30, 2006 and 2005. These financial statements are the responsibility of Fund
Management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and, Office of Management and
Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements. Those
standards require that we plan and perform the audits to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by Fund
Management, as well as evaluating the overall financial statement presentation. We believe that our
audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Fund as of September 30, 2006 and 2005, and its net costs, changes in net
position, budgetary resources, and the reconciliation of net costs to budgetary obligations, for the
years then ended, in conformity with accounting principles generally accepted in the United States of
America.

In accordance with Government Auditing Standards, we have also issued a report dated October 31,
2006, on our consideration of the Fund's internal control over financial reporting and a report dated
October 31, 2006, on its compliance with laws and regulations. These reports are an integral part of
an audit performed in accordance with Government Auditing Standards, and these reports should be
read in conjunction with this report in considering the results of our audits.
Our audits were conducted for the purpose of forming an opinion on the financial statements referred
to in the first paragraph of this report as a whole. The information presented in Fund Management's
Overview of the Fund, the Required Supplemental Information, and Other Accompanying
Information sections is not a required part of the financial statements but is supplementary
information required by accounting principles generally accepted in the United States of America,
OMB Circular A-136, Financial Reporting Requirements, or the Treasury Forfeiture Fund Act of
1992. We applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of the supplementary
information. However, such information has not been subjected to the auditing procedures applied in
the audits of the financial statements and, accordingly, we express no opinion on it.




October 31, 2006




                            SECTION II – FINANCIAL STATEMENTS                                    34
                                 Department of the Treasury Forfeiture Fund

                                             BALANCE SHEETS

                                     As of September 30, 2006 and 2005

                                            ( Dollars in Thousands)

                                                                    2006                        2005
Assets:
   Intragovernmental :
     Fund balance with Treasury                                $      53,390                $   164,996
     Investments and related interest (Note 3)                       672,180                    499,885
     Advances (Note 5)                                                   166                        143

   Total Intragovernmental                                           725,736                    665,024

     Cash and other monetary assets (Note 6)                          86,558                     64,736
     Accounts receivable                                               2,643                        793

                                                                      89,201                     65,529
     Forfeited property (Note 7)
       Held for sale, net of mortgages, liens and claims              46,665                     43,622
       To be shared with federal, state or local, or foreign
           governments                                                 2,060                      1,789
     Total forfeited property, net of mortgages, liens
        and claims                                                    48,725                     45,411

Total Assets                                                   $     863,662                $   775,964

Liabilities:
   Intragovernmental:
     Distributions payable
        Other federal agencies                                 $       1,969                $     1,545
     Accounts payable                                                 28,489                     42,825

   Total Intragovernmental                                            30,458                     44,370

     Seized currency and other monetary instruments (Note 9)         464,615                    381,012
     Distributions payable (Note 10)
       State and local agencies and foreign governments               54,663                     44,120
     Accounts payable                                                 26,328                      7,208
     Deferred revenue from forfeited assets                           50,841                     43,947

Total Liabilities                                                    626,905                    520,657
Net Position:
  Cumulative results of operations (Note 11)                         236,757                    255,307

Total Liabilities and Net Position                             $     863,662                $   775,964




               The accompanying notes are an integral part of these financial statements.
                              SECTION II - FINANCIAL STATEMENTS                                           35
                               Department of the Treasury Forfeiture Fund
                                      STATEMENTS OF NET COST
                             For the years ended September 30, 2006 and 2005
                                           (Dollars in Thousands)


                                                                         2006                 2005
Program:
ENFORCEMENT

     Intragovernmental:
        Seizure investigative costs and asset management            $     54,939        $          47,053
        Other asset related contract services                              2,066                        3
        Awards to informer                                                    44                        -
        Data systems, training and others                                 22,960                   19,658
        Super surplus (Note 13)                                                -                    2,239
        Secretary's enforcement fund (Note 14)                                 -                      500

     Total Intragovernmental                                              80,009                   69,453

     With the Public:
       National contract services seized property and other               52,716                   56,851
      Joint operations                                                     8,531                    8,850

     Total with the Public                                                61,247                   65,701

Net Cost of Operations                                              $    141,256        $         135,154




                     The accompanying notes are an integral part of these financial statements.
36              TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT - FISCAL YEAR 2006
                                Department of theTreasury Forfeiture Fund
                             STATEMENTS OF CHANGES IN NET POSITION
                              For the years ended September 30, 2006 and 2005
                                            (Dollars in Thousands)


                                                                                           2006            2005

Net Position - Beginning of year                                                      $   255,307     $   194,103
Financing Sources (Non-Exchange Revenues):
   Intragovernmental
       Investment interest income                                                           26,750         13,272
   Public
       Forfeited currency and monetary instruments                                        167,919         209,139
       Sales of forfeited property net of mortgages and claims                             46,732          49,497
       Proceeds from participating with other federal agencies                             14,099          22,337
       Value of property transferred in equitable sharing                                   1,696           6,992
       Payments in lieu of forfeiture, net of refund (Note 19)                             (9,045)          2,023
       Reimbursed costs                                                                     7,324           6,815
       Others                                                                               1,721           3,455

   Total Gross Non-Exchange Revenues                                                      257,196         313,530

Less: Equitable Sharing
   Intragovernmental
       Federal                                                                              (6,401)         (3,241)
   Public
       State and local agencies                                                            (81,311)        (75,684)
       Foreign countries                                                                      (707)         (4,227)
       Victim restitution                                                                   (1,346)         (2,086)
                                                                                           (83,364)        (81,997)

   Total Equitable Sharing                                                                 (89,765)        (85,238)

Total Non-Exchange Revenues, Net                                                          167,431         228,292
Transfers-Out
   Intragovernmental
   Super surplus (Note 13)                                                                 (19,127)        (19,211)
   Secretary's enforcement fund (Note 14)                                                  (25,598)        (12,723)

Total Transfers-Out                                                                        (44,725)        (31,934)

Total Financing Sources- Net                                                               122,706         196,358
Net Cost of Operations                                                                    (141,256)       (135,154)

Net Results of Operations                                                                  (18,550)        61,204

Net Position - End of Year                                                            $   236,757     $   255,307




                       The accompanying notes are an integral part of these financial statements.
                                   SECTION II - FINANCIAL STATEMENTS                                                  37
                                 Department of theTreasury Forfeiture Fund
                               STATEMENTS OF BUDGETARY RESOURCES
                               For the years ended September 30, 2006 and 2005
                                             (Dollars in Thousands)


                                                                          2006                     2005
Budgetary Resources:

     Unobligated balance - beginning of year                         $      86,760            $    95,779
     Recoveries of prior year unpaid obligations                            34,612                 15,028
     Budget authority                                                      271,187                320,870

Total Budgetary Resources                                            $     392,559            $   431,677


Status of Budgetary Resources:

     Obligations incurred                                           $      309,624            $   344,917
     Unobligated balances - available                                       82,935                 86,760

Total Status of Budgetary Resources                                 $      392,559            $   431,677

Change in Obligated Balance:

     Obligated balance, net - beginning of year                     $      256,255            $    176,382
     Obligations incurred                                                  309,624                 344,917
     Less: Gross outlays                                                  (286,752)               (250,016)
     Less: Recoveries of prior year unpaid obligations, actual             (34,612)                (15,028)

Obligated balance, net - end of year                                $      244,515            $   256,255


Net Outlays                                                         $      286,752            $   250,016




                     The accompanying notes are an integral part of these financial statements.
38            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT - FISCAL YEAR 2006
                                   Department of theTreasury Forfeiture Fund
                                         STATEMENTS OF FINANCING
                                 For the years ended September 30, 2006 and 2005
                                               (Dollars in Thousands)


                                                                                               2006           2005

Resources Used to Finance Activities:

   Budgetary resources obligated
    Obligations incurred                                                                $      309,624    $   344,917
    Less: Spending authority from offsetting collections and
      recoveries                                                                               (34,612)        (15,028)
     Net obligations                                                                           275,012        329,889
   Other Resources
    Transfers - out                                                                            (44,725)        (31,934)

Total Resources Used to Finance Activities                                                     230,287        297,955
Resources Used to Finance Items not Part of the Net Cost of
   Operations

     Change in budgetary resources obligated for goods,
       services and benefits ordered but not yet provided                                       28,869         (58,916)
     Other resources or adjustments to net obligated resources that
       do not affect net cost of operations
          Mortgages and claims                                                                 (11,510)        (10,501)
          Refunds                                                                              (16,625)         (8,146)
          Equitable sharing (federal, state/local and foreign)                                 (88,419)        (83,152)
          Victim restitution                                                                    (1,346)         (2,086)

Total Resources Used to Finance Items not Part of the
   Net Cost of Operations                                                                      (89,031)       (162,801)

Total Resources Used to Finance the Net Cost of Operations                                     141,256        135,154

Net Cost of Operations                                                                  $      141,256    $   135,154




                         The accompanying notes are an integral part of these financial statements.
                                     SECTION II - FINANCIAL STATEMENTS                                                    39
Note 1: Reporting Entity

The Department of the Treasury Forfeiture Fund (Treasury Forfeiture Fund or the Fund) was
established by the Treasury Forfeiture Fund Act of 1992, Public Law 102-393 (the TFF Act), and is
codified at 31 USC 9703. The Fund was created to consolidate all Treasury law enforcement
bureaus under a single forfeiture fund program administered by the Department of the Treasury
(Treasury). Treasury law enforcement bureaus fully participating in the Fund upon enactment of this
legislation were the U.S. Customs Service (Customs); the Internal Revenue Service (IRS); the
United States Secret Service (Secret Service); the Bureau of Alcohol, Tobacco and Firearms (ATF);
the Financial Crimes Enforcement Network (FinCEN); and the Federal Law Enforcement Training
Center (FLETC). FinCEN and FLETC contribute no revenue to the Fund and receive relatively few
distributions from the Fund. The U.S. Coast Guard, formerly part of the Department of
Transportation, now part of the Department of Homeland Security (DHS), also participates in the
Fund. However, all Coast Guard seizures are treated as Customs seizures because the Coast Guard
lacks seizure authority.

With enactment of the Homeland Security Act of 2002 (Homeland Security Act), law enforcement
bureaus currently participating in the Fund are: the Internal Revenue Service - Criminal
Investigation (IRS - CI) of Treasury, Customs and Border Protection (CBP), Immigration and
Customs Enforcement (ICE) and the U.S. Secret Service (USSS) of DHS. The U.S. Coast Guard of
DHS join these bureaus. The Fund continues in its capacity as a multi-Departmental Fund,
representing the interests of law enforcement components of the Departments of Treasury and
Homeland Security.

The Fund is a special fund that is accounted for under Treasury symbol number 20X5697. From this
no-year account, expenses may be incurred consistent with 31 USC 9703, as amended. A portion of
these expenses, referred to as discretionary expenses, are subject to annual appropriation limitations.
Others, referred to as non-discretionary (mandatory) expenses, are limited only by the availability of
resources in the Fund. Both expense categories are limited in total by the amount of revenue in the
Fund. The Fund is managed by the Treasury's Executive Office for Asset Forfeiture (EOAF).

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises.
The goal of the Treasury Forfeiture Fund is to support the Treasury’s national asset forfeiture
program in a manner that results in federal law enforcement’s continued and effective use of asset
forfeiture as a high-impact law enforcement sanction to disrupt and dismantle criminal activity.
Under a Memorandum of Understanding (MOU) with Treasury, CBP acts as the executive agent for
certain operations of the Fund. Pursuant to that executive agency role, CBP’s National Finance
Center (NFC) is responsible for accounting and financial reporting for the Fund, including timely
and accurate reporting and compliance with Treasury, the Comptroller General and the Office of
Management and Budget (OMB) regulations and reporting requirements.




40         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
Note 2: Summary of Significant Accounting Policies

Basis of Accounting and Presentation

The Fund began preparing audited financial statements in Fiscal Year 1993 as required by the
Fund’s enabling legislation 31 USC 9703(f)(2)(H), and the Chief Financial Officers Act of 1990.
Beginning with the Fiscal Year 1996 report, the Government Management Reform Act of 1994
(GMRA) requires executive agencies, including the Treasury, to produce audited consolidated
accountability reports and related footnotes for all activities and funds.

The financial statements have been prepared from the accounting records of the Fund in conformity
with accounting principles generally accepted in the United States of America (GAAP) and specified
by OMB in OMB Circular A-136, Financial Reporting Requirements (OMB Circular A-136).
GAAP for federal entities is prescribed by the Federal Accounting Standards Advisory Board
(FASAB), which is designated the official accounting standards setting body of the Federal
Government by the American Institute of Certified Public Accountants.

Financial Statements Presented

These financial statements are provided to meet the requirements of the Chief Financial Officers Act
of 1990, and the Government Management Reform Act of 1994. They consist of the balance sheet,
the statement of net cost, the statement of changes in net position, the statement of budgetary
resources, and the statement of financing, all of which are prescribed by OMB.

Comparative financial statements are presented in order to provide a better understanding of, and
identifying trends in the financial position and results of operations of the Fund. The statement of
budgetary resources for fiscal year 2005 has been reclassified to make it comparable to the fiscal
year 2006 presentation.

Allowable Fund Expenses

The majority of the revenue recorded by the Fund is utilized for operating expenses or distributed to
state and local law enforcement agencies, other federal agencies, and foreign governments, in
accordance with the various laws and policies governing the operations and activities of the Fund.
Under the TFF Act, the Fund is authorized to pay certain expenses using discretionary or mandatory
funding authorities of the Fund.

Discretionary authorities include but may not be limited to: the payment of expenses for the
purchase of awards for information or assistance leading to a civil or criminal forfeiture involving
any law enforcement bureau participating in the Fund; purchase of evidence or information that meet
the criteria set out in 31 USC 9703(a)(2)(B); payment for equipment for vessels, vehicles, or aircraft
available for official use as described by 31 USC 9703(a)(2)(D) and (F); reimbursement of private
persons for expenses incurred while cooperating with a Treasury law enforcement organization in
investigations; publication of the availability of certain awards; and payment for training foreign law
enforcement personnel with respect to seizure or forfeiture activities of the Fund. Discretionary
expenses are subject to an annual, definite Congressional appropriation from revenue in the Fund.



                                 SECTION II - FINANCIAL STATEMENTS                                  41
Expenses from the mandatory authorities of the Fund include but are not limited to: all proper
expenses of the seizure, including investigative costs and purchases of evidence and information
leading to seizure, holding cost, security costs, etc., awards of compensation to informers under
section 619 of the Tariff Act (19 USC 1619); satisfaction of liens against the forfeited property, and
claims of parties with interest in forfeited property; expenses incurred by state and local law
enforcement agencies in joint law enforcement operations with law enforcement agencies
participating in the Fund; and equitable sharing payments made to state and local law enforcement
agencies in recognition of their efforts in a Fund seizure leading to forfeiture. These mandatory
expenses are paid pursuant to the permanent indefinite authorities of the Fund; are only limited by
revenue in the Fund each year and do not require additional Congressional action for expenditure.

The Fund's expenses are either paid on a reimbursement basis or paid directly on behalf of a
participating bureau. Reimbursable expenses are incurred by the respective bureaus participating in
the Fund against their appropriation and then submitted to the Fund for reimbursement. The bureaus
are reimbursed through Inter-Agency Transfers (SF-1081) or Intra-governmental Payments and
Collection (IPAC) System. Certain expenses such as equitable sharing, liens, claims and state and
local joint operations costs are paid directly from the Fund.

Further, the Fund is a component unit of the Treasury with participating bureaus in the DHS. As
such, employees of both Departments may perform certain operational and administrative tasks
related to the Fund. Payroll costs of employees directly involved in the security and maintenance of
forfeited property are also recorded as expenses in the financial statements of the Fund (included in
the line item “seizure investigative costs and asset management” in the statement of net cost.)

Revenue and Expense Recognition

Revenue from the forfeiture of property is deferred until the property is sold or transferred to a state,
local or federal agency. Revenue is not recorded if the forfeited property is ultimately destroyed or
cannot be legally sold.

Revenue from currency is recognized upon forfeiture. Payments in lieu of forfeiture (mitigated
seizures) are recognized as revenue when the payment is received. Revenue received from
participating with certain other federal agencies is recognized when the payment is received.
Operating costs are recorded as expenses and related liabilities when goods are received or services
are performed. Certain probable equitable sharing liabilities existing at year end are accrued based
on estimates.

As provided for in the TFF Act, the Fund invests seized and forfeited currency that is not needed for
current operations. Treasury’s Bureau of Public Debt invests the funds in obligations of, or
guaranteed by, the United States Government. Interest is reported to the Fund and recorded monthly
as revenue in the general ledger.

Earmarked Funds

Earmarked funds are financed by specifically identified revenues, often supplemented by other
financing sources, which remain available over time. These specifically identified revenues and
other financing sources are required by statute to be used for designated activities, benefits, or

42          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
purposes, and must be accounted for separately from the Government’s general revenues. In
accordance with SFFAS 27, Earmarked Funds, all of the TFF’s revenue meets this criteria and
constitutes an earmarked fund.

The federal government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash collected from earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general government purposes. Treasury securities are issued to the
TFF as evidence of its receipts. Treasury securities are an asset to the TFF and a liability to the U.S.
Treasury. Because the TFF and U.S. Treasury are both parts of the government, these assets and
liabilities offset each other from the standpoint of the government as a whole. For this reason, they
do not represent an asset or a liability in the U.S. Government-wide financial statements.
Treasury securities provide the TFF with authority to draw upon the U.S. Treasury to make future
benefit payments or other expenditures. When the TFF requires redemption of these securities to
make expenditures, the government finances those expenditures out of accumulated cash balances,
by raising taxes or other receipts, by borrowing from the public or repaying less debt or by curtailing
other expenditures. This is the same way that the government finances all other expenditures.

Equitable Sharing (Assets Distributed)

Forfeited property, currency, or proceeds from the sales of forfeited property may be shared with
federal, state and local law enforcement agencies or foreign governments, which provided direct or
indirect assistance in the related seizure. In addition, the Fund may transfer forfeited property to
other federal agencies, which would benefit from the use of the item. A new class of asset
distribution was established for victim restitution in 1995. These distributions include property and
cash returned to victims of fraud and other illegal activity. Upon approval by Fund management to
share or transfer the assets, both revenue from distributed forfeited assets and distributions are
recognized for the net realizable value of the asset to be shared or transferred, thereby resulting in no
gain or loss recognized. Revenue and /or expenses are recognized for property and currency, which
are distributed to or shared with non-federal agencies, per SFFAS No. 7, Accounting for Revenue
and Other Financing Sources.

Entity Assets

Entity assets are used to conduct the operations and activities of the Fund. Entity assets comprise
intragovernmental and non-intragovernmental assets. Intragovernmental balances arise from
transactions among federal agencies. These assets are claims of a federal entity against another
federal entity. Entity assets consist of cash or other assets, which could be converted into cash to
meet the Fund's current or future operational needs. Such other assets include investments of
forfeited balances, accrued interest on seized balances, receivables, and forfeited property, which are
held for sale or to be distributed.

•	 Fund Balance with Treasury – This represents amounts on deposit with Treasury.

•	 Investments and Related Interest Receivable – This includes forfeited cash held by the Fund
   and seized currency held in the Customs Suspense Account that had been invested in short term
   U.S. Government Securities.



                                 SECTION II - FINANCIAL STATEMENTS                                    43
•	 Receivables – Intragovernmental receivables principally represent monies due from the law
   enforcement agencies participating in the Fund. The values reported for other receivables are
   primarily funds due from the national seized property contractor for properties sold; the proceeds
   of which have not yet been deposited into the Fund.

     No allowance has been made for uncollectible amounts as the accounts recorded as a receivable
     at year end were considered to be fully collectible as of September 30, 2006 and 2005.

•	 Advances – This primarily represents cash transfers to Treasury or law enforcement bureaus
   participating in the Fund for orders to be delivered.

•	 Cash and Other Monetary Assets – This includes forfeited currency on hand not yet deposited,
   and forfeited currency held as evidence.

•	 Forfeited Property and Currency – Forfeited property and currency is recorded in the
   respective seized property and forfeited asset tracking systems at the estimated fair value at the
   time of seizure. However, based on historical sales experiences for the year, properties are
   adjusted to reflect the market value at the end of the fiscal year for financial statement reporting
   purposes. Direct and indirect holding costs are not capitalized for individual forfeited assets.
   Forfeited currency not deposited into the Fund is included as part of Entity Assets - Cash and
   Other Monetary Assets.

Further, mortgages and claims on forfeited assets are recognized as a valuation allowance and a
reduction of deferred revenue from forfeited assets when the asset is forfeited. The allowance
includes mortgages and claims on forfeited property held for sale and a minimal amount of claims on
forfeited property previously sold. Mortgages and claims expenses are recognized when the related
asset is sold and is reflected as a reduction of sales of forfeited property.

Additionally, SFFAS No. 3, Accounting for Inventory and Related Property, requires certain
additional disclosures in the notes to the financial statements, including an analysis of changes in
seized and forfeited property and currency, for both carrying value and quantities, from that on hand
at the beginning of the year to that on hand at the end of the year. These analyses are disclosed in
Notes 8 and 9.

Non-entity Assets

Non-entity assets held by the Fund are not available for use by the Fund. Non-entity assets comprise
intragovernmental and other assets. Intragovernmental balances arise from transactions among
federal agencies. These assets are claims of a federal entity against another federal entity. Non
entity assets are not considered as financing sources (revenue) available to offset operating expenses,
therefore, a corresponding liability is recorded and presented as governmental liabilities in the
balance sheet to reflect the custodial/fiduciary nature of these activities.

•	 Seized Currency and Property – Seized Currency is defined as cash or monetary instruments
   that are readily convertible to cash on a dollar for dollar basis. OMB issued SFFAS No. 3 which
   requires that seized monetary instruments (cash and cash equivalents) be recognized as an asset
   in the financial statements and a liability be established in an amount equal to the seized asset


44          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
   value due to: (i) the fungible nature of monetary instruments, (ii) the high level of control that is
   necessary over these assets; and (iii) the possibility that these monies may be returned to their
   owner in lieu of forfeiture.

   Seized property is recorded at its appraised value at the time of seizure. The value is determined
   by the seizing entity and is usually based on a market analysis such as a third party appraisal,
   standard property value publications or bank statements. Seized property is not recognized as an
   asset in the financial statements, as transfer of ownership to the government has not occurred as
   of September 30. Accordingly, seized property other than monetary instruments are disclosed in
   the footnotes in accordance with SFFAS No. 3.

•	 Investments – This balance includes seized cash on deposit in the Fund’s suspense account held
   by Treasury which has been invested in short term U.S. Government Securities.

•	 Cash and Other Monetary Assets – This balance represents the aggregate amount of the
   Fund’s seized currency on deposit in the Fund’s suspense account held by Treasury, seized cash
   on deposit held with other financial institutions, and, cash on hand in vaults held at field office
   locations.

Liabilities Covered by Budgetary Resources

Liabilities covered by budgetary resources represent liabilities incurred, which are covered by
available budgetary resources. The components of such liabilities for the Fund are as follows:

•	 Distributions Payable – Distributions payable to federal and non-federal agencies is primarily
   related to equitable sharing payments and payments to be made by the Fund to the victims of
   fraud.

•	 Accounts Payable – Amounts reported in this category include accrued expenses authorized by
   the TFF Act (See "Allowable Fund Expenses") for which payment was pending at year end.

•	 Seized Currency – Amounts reported in this category represent the value of seized currency that
   is held by the Fund which equals the amount of seized currency reported as an asset.

•	 Deferred Revenue from Forfeited Assets – At year end, the Fund held forfeited assets, which
   had not yet been converted into cash through a sale. The amount reported here represents the
   value of these assets, net of mortgages and claims.

Liabilities Not Covered by Budgetary Resources

The Fund does not currently have liabilities not covered by available budgetary resources.

Net Position

The components of net position are classified as follows:

•	 Retained Capital – There is no cap on amounts that the Fund can carry forward into Fiscal Year


                                SECTION II - FINANCIAL STATEMENTS                                    45
     2007. The cap was removed by the Fiscal Year 1997 Omnibus Appropriations Act (PL 104
     208).

•	 Unliquidated Obligations – This category represents the amount of undelivered purchase
   orders, contracts and equitable sharing requests which have been obligated with current budget
   resources or delivered purchase orders and contracts that have not been invoiced. An expense
   and liability are recognized and the corresponding obligations are reduced as goods are received
   or services are performed. A portion of the equitable sharing requests that were in final stages of
   approval are recognized as liabilities at year end. Prior experience with the nature of this
   account indicated that a substantial portion of these requests were certain liabilities at year end.
   Prior to Fiscal Year 1999, expenses and liabilities were recognized and the corresponding
   obligations reduced when final management approval for an equitable sharing request was given
   (See also Distributions Payable at Note 10).

•	 Results of Operations – This category represents the net difference, for the activity during the
   year, between: (i) financing sources including transfers, and revenues; and (ii) expenses.

Note 3: Investments and Related Interest

All investments are intragovernmental short-term (35 days or less) non-marketable par value federal
debt securities issued by, and purchased through, Treasury's Bureau of the Public Debt. Investments
are always purchased at a discount and are reported at acquisition cost, net of discount. The
discount is amortized into interest income over the term of the investment. The investments are
always held to maturity. They are made from cash in the Fund and from seized currency held in the
Customs Suspense Account. The Customs Suspense Account became the depository for seized cash
for the Fund following enactment of the TFF Act.

The following schedule presents the investments on hand as of September 30, 2006 and 2005,
respectively (dollars in thousands):

Entity Assets
                                                                       Unamortized       Investment,
Description                                               Cost          Discount             Net
September 30, 2006:
Treasury Forfeiture Fund -                               $ 275,054            $ (994)        $ 274,060
28 days 4.65% U.S.
Treasury Bills
Interest Receivable –
  On entity investments                                                                            320
  On non-entity investments                                                                        463
 Total Investment, Net, and Interest Receivable                                              $ 274,843

Fair Market Value                                                                           $ 274,468




46         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
September 30, 2005:
Treasury Forfeiture Fund -
28 days 3.15% U.S.
Treasury Bills                                     $ 178,565         $ (547)      $ 178,018
Interest Receivable –
 On entity investments                                                                  234
 On non-entity investments                                                              424
 Total Investment, Net, and Interest Receivable                                   $ 178,676

 Fair Market Value                                                                $ 178,308

Non-entity Assets
                                                               Unamortized     Investment,
Description                                        Cost         Discount           Net

September 30, 2006:

Treasury Forfeiture Fund – Seized Currency
Suspense Account
28 days 4.65%
U.S. Treasury Bills                                $ 398,778       $ (1,441)     $ 397,337

Fair Market Value                                                                 $ 397,929


September 30, 2005:

Treasury Forfeiture Fund – Seized Currency
Suspense Account
28 days 3.15%
U.S. Treasury Bills                                $ 322,196        $ (987)      $ 321,209

Fair Market Value                                                                $ 321,732




                               SECTION II - FINANCIAL STATEMENTS                         47
Note 4: Intragovernmental and Other Non-Entity Assets

The following schedule presents the intragovernmental and other non-entity assets as of September
30, 2006 and 2005, respectively, (dollars in thousands):

                                                           2006                        2005
 Intragovernmental Assets:
        Seized currency:
           Investments (Note 3)                           $ 397,337                  $ 321,209
         Seized currency:
            Cash and other monetary assets (Note 6)           67,278                     59,803
 Total Non-Entity Assets                                    464,615                    381,012
 Total Entity Assets                                        399,047                    394,952
 Total Assets                                             $ 863,662                  $ 775,964

Note 5: Advances

Advances amounted to $166 thousand and $143 thousand as of September 30, 2006 and 2005,
respectively.

Note 6: Cash and Other Monetary Assets

Entity Assets

Cash and Other Monetary Assets held on hand included forfeited currency not yet deposited, as
well as forfeited currency held as evidence, amounting to $19.3 million and $4.9 million as of
September 30, 2006 and 2005, respectively.
Non-Entity Assets
Cash and Other Monetary Assets included seized currency not yet deposited, as well as
deposited seized currency which is not invested in order to pay remissions, amounting to $67.3
million and $59.8 million as of September 30, 2006 and 2005, respectively.

Note 7: Forfeited Property

The following summarizes the components of forfeited property (net), as of September 30, 2006 and
2005, respectively, (dollars in thousands):

                                                                      2006              2005
Held for Sale                                                      $ 52,645           $ 52,874
To be shared with federal, state or local, or foreign government      2,060              1,789
  Total forfeited property (Note 8)                                    54,705           54,663
Less: Allowance for mortgages and claims                               (5,980)          (9,252)
Total forfeited property, net                                      $ 48,725           $ 45,411



48         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
Note 8:            FY 2006 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and balances from October 1, 2005 to September 30, 2006.
(Dollar value is in thousands.)


                     10/1/05 Financial                                         10/1/05 Carrying
                    Statement Balance                 Adjustments                   Value                     Forfeitures             Deposits/Sales        Disposals/Transfers

                       Value       Number           Value       Number         Value     Number            Value       Number        Value       Number         Value       Number

Currency           $ 4,729                  -   $           -         -    $     4,729             -   $ 160,549             -   $ (149,162)                $ (2,440)
Other Monetary
Instruments               204               -               -         -            204             -           111           -            (25)
Subtotal                4,933               -               -         -          4,933             -       160,660           -       (149,187)          -        (2,440)            -

Real Property        39,369            138        (7,243)             -         32,126        138         22,297            94      (25,460)        (108)        (672)           (4)
General Property      5,287          6,079         9,640              -         14,927      6,079          9,639        11,311       (9,003)      (2,116)      (1,760)         (687)
Vessels                 746             29           706              -          1,452         29          1,594            93       (1,132)         (43)        (997)           (6)
Aircraft                147              2            56              -            203          2            382             3         (212)          (3)           -             -
Vehicles              9,114          4,138         5,474              -         14,588      4,138         56,040        22,353      (39,300)     (10,283)     (12,294)       (1,414)
Subtotal             54,663         10,386         8,633              -         63,296     10,386         89,952        33,854      (75,107)     (12,553)     (15,723)       (2,111)
Grand Total        $ 59,596         10,386      $ 8,633               -    $    68,229     10,386      $ 250,612        33,854   $ (224,294)     (12,553)   $ (18,163)       (2,111)


                                                                                                                                                                Fair Market Value        9/30/06 Financial
                       Victim Restitution              Destroyed               Other Adjustments            Value Change          2006 Carrying Value              Adjustment            Statement Balance

                       Value       Number           Value       Number         Value    Number             Value       Number        Value       Number         Value       Number       Value     Number
Currency           $           -                $           -                    5,321        -        $           -         -   $    18,997                $           -               $ 18,997
Other Monetary                 -            -               -         -                       -                    -         -                          -               -           -          -             -
Instruments                    -            -               -         -             (7)       -                    -         -           283            -               -           -        283             -
Subtotal                       -            -               -         -          5,314        -                    -         -        19,280            -               -           -     19,280             -

Real Property                  -            -            -            -          3,775         21              (58)          -        32,008         141       8,304                -     40,312        141
General Property               -            -         (401)      (9,450)           557        980           (4,953)          -         9,006       6,117      (5,583)               -      3,423      6,117
Vessels                        -            -            -          (37)           177          3              (10)          -         1,084          39        (372)               -        712         39
Aircraft                       -            -            -            -              -          -                -           -           373           2        (132)               -        241          2
Vehicles                       -            -          (12)     (11,568)         1,463        382           (1,299)          -        19,186       3,608      (9,169)               -     10,017      3,608
Subtotal                       -            -         (413)     (21,055)         5,972      1,386           (6,320)          -        61,657       9,907      (6,952)               -     54,705      9,907
Grand Total        $           -            -   $     (413)     (21,055)   $    11,286      1,386      $    (6,320)          -   $    80,937       9,907    $ (6,952)               -   $ 73,985      9,907




                                                                 TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT - FISCAL YEAR 2006                                                                    49
Note 8 (Contd):    FY 2005 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and balances from October 1, 2004 to September 30, 2005.
(Dollar value is in thousands.)


                        10/1/04 Financial                                      10/1/04 Carrying
                       Statement Balance              Adjustments                   Value                    Forfeitures               Deposits/Sales              Disposals/Transfers

                       Value       Number           Value       Number         Value      Number           Value       Number         Value       Number           Value        Number
                                                                                                                                                                                                                         ##
Currency           $     6,725              -   $           -         -    $     6,725             -   $ 188,046             -   $    (201,069)            -   $    (12,491)             -                               ##
Other Monetary                                                                                                                                                                                                           ##
Instruments              1,695              -               -         -          1,695             -             8           -             (10)            -              -              -                               ##
Subtotal                 8,420              -               -         -          8,420             -       188,054           -        (201,079)            -        (12,491)             -                                6
                                                                                                                                                                                                                         ##
Real Property        31,603            114       (12,245)             -         19,358        114         42,115           147         (29,575)       (126)          (2,175)        (10)                                 ##
General Property      2,855          5,335        15,972              -         18,827      5,335         20,134        13,431          (9,747)     (2,263)          (7,705)       (932)                                 ##
Vessels                 566             32           282              -            848         32          2,511           104          (1,818)        (74)            (231)        (10)
Aircraft                103              2            72              -            175          2            561             5            (350)         (3)            (183)         (2)
Vehicles              8,636          8,686         5,378              -         14,014      8,686         38,373        26,887         (25,502)     (4,584)         (11,074)     (1,330)
Subtotal             43,763         14,169         9,459              -         53,222     14,169        103,694        40,574         (66,992)     (7,050)         (21,368)     (2,284)
Grand Total        $ 52,183         14,169      $ 9,459               -    $    61,642     14,169      $ 291,748        40,574   $    (268,071)     (7,050)    $    (33,859)     (2,284)


                                                                                                                                                                    Fair Market Value            9/30/05 Financial
                       Victim Restitution              Destroyed               Other Adjustments            Value Change             2005 Carrying Value               Adjustment             Statement Balance

                       Value       Number           Value       Number         Value      Number           Value       Number         Value       Number           Value        Number           Value     Number
Currency           $           -                $           -                   23,518          -      $           -        -    $       4,729                 $           -                 $     4,729
Other Monetary
Instruments                    -            -               -         -         (1,489)            -               -         -             204             -               -             -          204              -
Subtotal                       -            -               -         -         22,029             -               -         -           4,933             -               -             -        4,933

Real Property                  -            -            -            -          2,385         13               18           -          32,126        138              7,243             -     39,369           138
General Property               -            -          (95)      (9,689)           404        197           (6,891)          -          14,927      6,079             (9,640)            -      5,287         6,079
Vessels                        -            -            -          (23)           137          -                5           -           1,452         29               (706)            -        746            29
Aircraft                       -            -            -            -              -          -                -           -             203          2                (56)            -        147             2
Vehicles                       -            -                   (25,431)           482        (90)          (1,705)          -          14,588      4,138             (5,474)            -      9,114         4,138
Subtotal                       -            -          (95)     (35,143)         3,408        120           (8,573)          -          63,296     10,386             (8,633)            -     54,663        10,386

Grand Total        $           -            -   $      (95)     (35,143)   $    25,437        120      $    (8,573)          -   $      68,229     10,386      $      (8,633)            -   $ 59,596        10,386





50                                                                                            SECTION II - FINANCIAL STATEMENTS
Note 9:            FY 2006 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or administratively forfeited. Because of the fungible nature of currency
and the high level of control necessary over these assets and the possibility that these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon
seizure. Seized property other than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)




                      9/30/05 Financial                                                                                                                                                                   9/30/06 Financial
                     Statement Balance                   Seizures                     Remissions                    Forfeitures                   Adjustments                Value Changes               Statement Balance

                      Value      Number             Value       Number            Value       Number            Value       Number              Value      Number           Value       Number            Value          Number

Currency            $ 379,265             -      $ 281,034                      $ (73,584)                    $ (160,549)                   $    25,899                                                $ 452,065
Other Monetary
Instruments             1,747             -              362                          (155)                         (111)                        10,707                                                    12,550
Subtotal              381,012             -          281,396             -         (73,739)           -         (160,660)           -            36,606           -                 -          -          464,615

Real Property         261,173         627          128,051             331         (24,696)       (112)          (22,297)        (94)           (62,885)        (51)           (876)                      278,470            701
General Property      146,559      10,333          256,276          24,848        (126,788)     (4,615)           (9,639)    (11,311)            (3,557)     (4,579)        (25,718)                      237,133         14,676
Vessels                 4,350          97            6,071             151          (3,304)        (54)           (1,594)        (93)            (1,076)         (9)           (175)                        4,272             92
Aircraft                4,154           8            4,538              15            (942)         (8)             (382)         (3)            (4,982)         (2)          1,375                         3,761             10
Vehicles               61,021      10,291          126,171          27,271         (65,868)     (6,665)          (56,040)    (22,353)            (4,073)       (934)         (9,480)                       51,731          7,610
Subtotal              477,257      21,356          521,107          52,616        (221,598)    (11,454)          (89,952)    (33,854)           (76,573)     (5,575)        (34,874)           -          575,367         23,089
Grand Total         $ 858,269      21,356        $ 802,503          52,616      $ (295,337)    (11,454)       $ (250,612)    (33,854)       $                (5,575)      $ (34,874)           -        1,039,982         23,089




                                                                                                                            (39,967)




                                                                    TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT - FISCAL YEAR 2006                                                                                         51
     Note 9 (Contd):    FY 2005 Analysis of Changes in Seized Property and Currency

     Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or administratively forfeited. Because of the fungible nature of currency
     and the high level of control necessary over these assets and the possibility that these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon
     seizure. Seized property other than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)




                            9/30/04 Financial                                                                                                                                                                9/30/05 Financial
                           Statement Balance                  Seizures                     Remissions                     Forfeitures                 Adjustments                Value Changes              Statement Balance

                            Value       Number           Value       Number             Value       Number             Value       Number           Value      Number            Value      Number           Value       Number

     Currency            $ 371,969              -     $ 257,156               -     $    (51,382)            -     $   (188,046)           -      $ (9,843)            -     $      (589)           -     $ 379,265
     Other Monetary
     Instruments               1,476            -             652             -             (326)            -               (8)           -            (47)           -               -            -          1,747
     Subtotal                373,445            -         257,808             -          (51,708)            -         (188,054)           -         (9,890)           -            (589)           -        381,012

     Real Property         234,725           581        122,458             225          (16,243)         (89)          (42,115)       (147)        (38,626)         57              974            -        261,173             627
     General Property      187,362        10,432        177,847          21,696         (135,019)      (4,641)          (20,134)    (13,431)         (2,328)     (3,723)         (61,169)           -        146,559          10,333
     Vessels                 3,148            95          6,252             158           (2,073)         (46)           (2,511)       (104)           (365)         (6)            (101)           -          4,350              97
     Aircraft                5,989            14          7,014              12           (6,987)         (10)             (561)         (5)            (29)         (3)          (1,272)           -          4,154               8
     Vehicles               61,928        13,555        127,426          34,235          (74,958)      (9,032)          (38,373)    (26,887)         (4,235)     (1,580)         (10,767)           -         61,021          10,291
     Subtotal              493,152        24,677        440,997          56,326         (235,280)     (13,818)         (103,694)    (40,574)        (45,583)     (5,255)         (72,335)           -        477,257          21,356
     Grand Total         $ 866,597        24,677      $ 698,805          56,326     $   (286,988)     (13,818)     $   (291,748)    (40,574)      $ (55,473)     (5,255)     $   (72,924)           -        858,269          21,356




52                                                                                              SECTION II - FINANCIAL STATEMENTS
Note 10: Distributions Payable (state and local agencies and foreign governments)

Distributions Payable (state and local agencies and foreign governments) amounted to $54.7 million
and $44.1 million as of September 30, 2006 and 2005, respectively. Fund management recognizes
as a liability a portion (based on the average of historical pay-out percentage) of the equitable
sharing requests, that were approved or in final stages of approval on September 30, 2006 and 2005,
respectively. Prior experience with the nature of this account indicated that a substantial portion of
these requests were certain to be paid out by the Fund during the following fiscal year.

Note 11: Net Position

Cumulative Results

The following summarizes components of cumulative results as of and for the years ended
September 30, 2006 and 2005, respectively, (dollars in thousands):

                                                          2006                          2005
      Retained Capital                                  $ 119,551                    $ 133,730
      Unliquidated Obligations                            135,756                       60,373
      Results of Operations                              (18,550)                       61,204
                                                        $ 236,757                    $ 255,307

Unliquidated Obligations

The following summarizes the components of unliquidated obligations as of September 30, 2006
and 2005, respectively, (dollars in thousands):

                                                           2006                       2005
       Discretionary                                       $      --                 $       -
       Equitable Sharing                                    76,796                       37,087
       Mandatory                                            58,960                       23,286
                                                         $135,756                    $ 60,373

Note 12: Related Party Transactions

The Fund reimbursed agencies for the purchase of certain capital assets. These assets are reported
by the participating agencies in their financial statements.

Note 13: Super Surplus

31 USC 9703 (g)(4)(B) allows for the expenditure, without fiscal year limitation, after the
reservation of amounts needed to continue operations of the Fund. This “Super Surplus” balance
may be used for law enforcement activities of any federal agency.


                            SECTION II - FINANCIAL STATEMENTS                                      53
Amounts distributed to other federal agencies for law enforcement activities under “Super Surplus”
requirements amounts to $19.1 million and $21.5 million in fiscal years 2006 and 2005, respectively.

Note 14: Secretary’s Enforcement Fund

31 USC 9703 (b)(5) is another category of permanent indefinite authority. These funds are available
to the Secretary, without further action by Congress and without fiscal year limitation, for federal
law enforcement purposes of Treasury law enforcement organizations. The source of Section
9703(b)(5) funds is equitable sharing payments received from the Department of Justice and the U.S.
Postal Service (USPS) representing Treasury's share of forfeiture proceeds from Justice and USPS
cases.

Amounts distributed for federal law enforcement purposes of Treasury law enforcement
organizations amounted to $25.6 million and $13.2 million in fiscal years 2006 and 2005,
respectively.

Note 15: Commitments and Contingencies

A portion of the equitable sharing requests that were in final stages of approval are recognized as
liabilities as of September 30 (See also Note 10, Distributions Payable).

In addition to the amounts estimated above, there are additional amounts, which may ultimately be
shared, which are not identified at this time.

CONTINGENCIES
Possible claims of potential significance include the following:

1. 	    The United States Court of Appeals for the Ninth Circuit ruled that it is unconstitutional to
        forfeit currency based upon a violation of a federal currency reporting statute. Accordingly,
        the court has ruled that in returning currency, the government must return the benefit that is
        received from holding the currency.

The interest to be returned will be payable out of the income of the Fund, and, at present, represents
a possible claim of potential significance.

2. 	    The Supreme Court has ruled that the government must return forfeited currency in those
        cases of individuals convicted for currency reporting violations who have had currency
        forfeited due to the violation. The amount of the currency that might be refunded will be
        payable from the Fund, and, at present, represents a possible claim of potential significance.

At present, it is not possible to determine the likelihood that the above claims will arise. Similarly, it
is not possible to determine the value of such potential claims against the Fund.

Judgements and settlements of $2,500 or greater, resulting from litigation and claims against the
Fund are satisfied from various claims and judgement funds maintained by Treasury.


54          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
Note 16: Disclosures Related to the Statements of Net Cost

Gross costs and earned revenue related to Law Enforcement Programs administered by the Fund are
presented in Treasury’s budget functional classification (in thousands) as set out below:

                                                            2006                       2005

     Gross Costs                                          $ 141,256                  $ 135,154
     Earned Revenues                                              --                         -
     Net Costs                                            $ 141,256                  $ 135,154

The Fund falls under the Treasury’s budget functional classification related to Administration of
Justice.

Note 17: Disclosures Related to the Statements of Budgetary Resources

The Fund’s net amount of budgetary resources obligated at the end of fiscal years 2006 and 2005 are
$244.5 million and $256.3 million, respectively. This amount is fully covered by cash on hand in
the Fund and Entity Investments. The Fund does not have borrowing or contract authority and,
therefore, has no repayment requirements, financing sources for repayment, or other terms of
borrowing authority. No adjustments were required during the reporting period to budgetary
resources available at the beginning of the year. There are no legal arrangements, outside of normal
government wide restrictions, specifically affecting the Fund’s use of unobligated balances of budget
authority.

Adjustments to budgetary resources available at the beginning of fiscal years 2006 and 2005 consist
of the following (in thousands):

                                                                 2006                   2005
       Recoveries of Prior Year Obligations                   $ 34,612               $ 15,028

Recoveries of prior year obligations are the difference between amounts that Fund management
obligated (including equitable sharing) and amounts subsequently approved for payment against
those obligations.

Note 18: Dedicated Collections

The Fund is classified as a special fund. All its activities are reported as dedicated collections
held for later use.




                            SECTION II - FINANCIAL STATEMENTS                                        55
Note 19: Payments in Lieu of Forfeiture, Net of Refund

The following summarizes Payments in Lieu of Forfeiture, Net of Refunds as of September 30, 2006
and 2005, respectively, (dollars in thousands):

                                                              2006                 2005
      Payments in Lieu of Forfeiture                        $ 7,580            $ 10,169
      Refunds                                              (16,625)              (8,146)
      Total                                               ($ 9,045)              $2,023




56         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
  SECTION III 


OTHER REPORTS

        Independent Auditor's Report on Internal Control over Financial Reporting

Inspector General
United States Department of the Treasury
Washington, D.C.

We have audited the Principal Statements (balance sheets and the related statements of net cost,
changes in net position, budgetary resources and financing, hereinafter referred to as “financial
statements”) of the Department of the Treasury Forfeiture Fund (the Fund) as of and for the year
ended September 30, 2006, and have issued our report thereon dated October 31, 2006. We
conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and, Office of Management and Budget
(OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.

In planning and performing our audit, we considered the Fund’s internal control over financial
reporting by obtaining an understanding of the Fund’s internal control, determined whether these
internal controls had been placed in operation, assessed control risk, and performed tests of controls
in order to determine our auditing procedures for the purpose of expressing our opinion on the
financial statements. We limited our internal control testing to those controls necessary to achieve
the objectives described in OMB Bulletin No. 06-03 and Government Auditing Standards. We did
not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982, such as those controls relevant to ensuring efficient
operations. The objective of our audit was not to provide assurance on internal control over financial
reporting. Consequently, we do not provide an opinion on internal control over financial reporting.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants, reportable conditions are
matters coming to our attention that, in our judgment, should be communicated because they
represent significant deficiencies in the design or operation in internal control, which could
adversely affect the Fund’s ability to meet the objectives of internal control.

Material weaknesses are reportable conditions in which design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements
caused by error, fraud or noncompliance in amounts that would be material in relation to the
financial statements being audited, or material to a performance measure or aggregation of related
performance measures, may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. Because of inherent limitations in internal
control, misstatements due to error or fraud may nevertheless occur and not be detected. We noted
The reportable condition, as defined above, is summarized below with further explanations and Fund
Management’s responses in Exhibit I of this report.

Reportable Condition

Indirect Overhead Expenses of the National Seized Property Contractor are not Recorded and
Accounted for by the Fund to the Line Item Level. (Repeat Condition)

Indirect overhead expenses of the national seized property contractor are not recorded and accounted
for by the Fund to the line item level. The Fund’s Property Custodian incurs costs on behalf of the
Fund from the time of seizure until the asset is ultimately disposed. Currently, only holding costs
and direct selling costs related to general property are captured in the Seized Assets and Case
Tracking System at the line item level, but not the indirect costs.

Because the weakness impacts the control environment of the Fund and related lines of authority,
and the condition can impact equitable sharing expenses of the Fund, these should be remedied.

We also noted another matter involving the internal control and its operation that we have reported
to Fund Management in a separate letter dated October 31, 2006.

                                            ********

Finally, with respect to internal control related to performance measures reported in Section 1,
“Overview,” we obtained an understanding of the design of significant internal controls relating to
the existence and completeness assertions, as required by OMB Bulletin No. 06-03. Our procedures
were not designed to provide assurance on internal control over reported performance measures, and,
accordingly, we do not provide an opinion on such controls.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General and the Government Accountability Office and is not intended to be, and should
not be used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




October 31, 2006




                                SECTION III – OTHER REPORTS                                       58
         Independent Auditor's Report on Compliance with Laws and Regulations

Inspector General
United States Department of the Treasury
Washington, D.C.

We have audited the Principal Statements (balance sheets and the related statements of net cost,
changes in net position, budgetary resources and financing, hereinafter referred to as “financial
statements”) of the Department of the Treasury Forfeiture Fund (the Fund) as of and for the year
ended September 30, 2006, and have issued our report thereon dated October 31, 2006. We
conducted our audit in accordance with: auditing standards generally accepted in the United States
of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and, Office of Management and
Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.

The management of the Fund is responsible for complying with laws and regulations applicable to
the Fund. As part of obtaining reasonable assurance about whether the Fund’s financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in
OMB Bulletin No. 06-03, including the requirements referred to in the Federal Financial
Management Improvement Act (FFMIA) of 1996. We limited our tests of compliance to these
provisions and we did not test compliance with all laws and regulations applicable to the Fund.

The results of our tests of compliance disclosed no instances of noncompliance with laws and
regulations discussed in the preceding paragraph exclusive of FFMIA, that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 06-03.

Under FFMIA, we are required to report whether the Fund’s financial management systems
substantially comply with the Federal financial management systems requirements, applicable
Federal accounting standards, and the United States Government Standard General Ledger at the
transaction level. To meet this requirement, we performed tests of compliance with FFMIA section
803(a) requirements.

The results of our tests disclosed no instances in which the Fund’s financial management systems
did not substantially comply with the three requirements discussed in the preceding paragraph.
Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General, and the Government Accountability Office and is not intended to be and should
not be used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




October 31, 2006




   TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006                             60
      EXHIBIT I 


REPORTABLE CONDITION

INDIRECT OVERHEAD EXPENSES OF THE NATIONAL SEIZED PROPERTY
CONTRACTOR ARE NOT RECORDED AND ACCOUNTED FOR BY THE FUND TO THE
LINE ITEM LEVEL. (Repeat Condition)

Indirect overhead expenses of the national seized property contractor are not recorded and accounted
for by the Fund to the line item level. The Fund’s Property Custodian incurs costs on behalf of the
Fund from the time of seizure until the asset is ultimately disposed. Currently, only holding costs
and direct selling costs related to general and real property are captured in the Seized Assets and
Case Tracking System (SEACATS) at the line item level, but not the indirect costs.

The Budget and Accounting Procedures Act of 1950, Section 3512, Executive Agency's Accounting
System requires Federal agencies to establish an internal control which ensures the safeguarding of
assets and the proper recording of revenues and expenditures. It is further reinforced by the Federal
Manager's Financial Integrity Act of 1982 (FMFIA) which requires that internal accounting and
administrative controls be established to provide reasonable assurances that revenues and
expenditures applicable to agency operations are properly recorded and accounted for to permit the
preparation of accounts and reliable financial and statistical reports and to maintain accountability
over the assets. Additionally, the Joint Financial Management Improvement Program’s (JFMIP)
Seized Property and Forfeited Assets Systems Requirements require seized property and forfeited
assets systems to record costs incurred while the asset is in custody, and costs incurred in disposition
activities.

The Fund relies on the Property Custodian for providing asset specific expenses information.
Deficiencies in the system (SEACATS) that the Property Custodian uses preclude the capturing of
certain expense information at the asset level. Currently, only holding costs and direct selling costs
related to general and real property are captured in SEACATS at the line item level.

The Fund is unable to report total asset specific expenses in the inventory systems. Overhead costs
of the general and real property contracts are not distributed to the line item level. The Fund’s asset
management function will deteriorate if the above conditions are allowed to continue, resulting
ultimately in a lack of accountability over the assets of the Fund. This is because revenue associated
with the asset may be overhead for purposes of equitable sharing, victim restitution and possibly
other uses of the funds where the calculation will result in a distribution of all resources after
expenses. If expenses are understated, the resulting distribution will be over-stated which can
damage the long-term viability of the Fund if uncorrected and chronic in nature.

RECOMMENDATION

In view of the Fund’s acknowledgement of this condition and SEACATS’ inability to capture the
required information, we make the following recommendations:

a. 	   For all common support costs not directly traceable to individual seizures, an allocation
       process needs to be developed and implemented. Indirect costs will have to be applied to the
       individual seizures. Direct and indirect costs will have to be added together to provide total

          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006                            61
       costs per seizure.

b.	    The Fund should vigorously pursue the enhancement of SEACATS system capabilities to
       record and report total expenses at the asset level.

MANAGEMENT RESPONSE

Management Assessment on Progress:

(1)    Real Property Contract:          TFF Management took action to move the Real Property
Contract from the auspices of Customs and Border Protection (CBP), Department of Homeland
Security to direct management by the Executive Office for Asset Forfeiture. However, the problem
remains because resolution of the issue requires software programming by CBP to implement the
approved methodology for capturing the overhead expenses to the line item level for the real
property contract. To date, CBP has not accomplished this initiative although the Fund provided
resources to do so in the initial year the methodology was identified and approved.

(2)     General Property Contract: The requirement to distribute contract overhead costs to the
line item level is included in the Statement of Work for the general property contract now in the
procurement process. TFF Management has taken action to move procurement of the general
property contract to the auspices of the Executive Office for Asset Forfeiture. Resolution of the
Reportable Condition for the general property contract remains open for FY 2006.

Discussion/Background and Planned Action:

Summary of Current Status: Fund management concurs with the auditor’s recommendation
regarding the development and implementation of an allocation process for indirect costs. EOAF
relies on a national seized property contractor (the contractor) to account for all costs related to the
storage, maintenance and sale of seized and forfeited property. Currently, the real property
contractor has proposed a methodology for identifying indirect costs to the line item level. CBP has
not yet implemented the methodology through SEACATS. Implementation of an indirect cost
methodology for general property will have to await the successor contract for general property. The
requirement is not a part of the current general property contractor’s statement of work.




62                               EXHIBIT I – REPORTABLE CONDITION
          EXHIBIT II 


STATUS OF PRIOR YEAR FINDINGS

   THE ORGANIZATIONAL STRUCTURE DOES NOT PROVIDE FOR EFFECTIVE
     CHIEF FINANCIAL OFFICER (CFO) FUNCTION AND RESPONSIBILITIES
                          (Material Weakness)

The Fund’s organizational structure with respect to the CFO function is not clearly defined. In the
Fund’s organization chart dated March 3, 2005, the CFO/Financial Management Officer reports to
the Assistant Director, Operations and does not appear to have responsibilities for functions that are
typically within the purview of a CFO, such as financial operations and analysis, financial systems,
budget formulation and execution. During the course of the audit, we also noted that, in different
situations, different individuals have taken on the responsibilities of the CFO. For instance, the
Director signed off as the Director and CFO for the Fund’s FY 2005 Management Representation
Letter dated November 7, 2005, provided to the Department for preparation of the Department’s
Consolidated Financial Statements and Performance and Accountability Report. In other
correspondence during the audit, the Financial Management Officer signed off as the Acting CFO
and Deputy CFO. The Fund needs to have an individual clearly designated and recognized as the
CFO. This individual should be delegated authority over the customary functions stated above.

RECOMMENDATIONS

We recommend that:

(1) 	   The Under Secretary (Terrorism and Financial Crimes) establishes an organizational
        structure for the Fund that clearly designates a CFO and assigns appropriate authority and
        responsibilities to the CFO.

(2) 	   The Director of EOAF ensures that procedures are established to estimate September
        equitable sharing obligations for financial reporting purposes. This estimate can be based on
        an average of equitable sharing percentages for the eleven months preceding September.
        The estimate can be adjusted after year end for any significant difference from the official
        estimates received from the applicable bureaus in October.

FY 2006 STATUS

(a) 	   To clearly define and align the role of the CFO with the responsibilities for financial
        operations, financial systems, budget formulation and execution, the duties and
        responsibilities of a CFO have been assigned to the Assistant Director for Financial
        Management and Operations. The Assistant Director for Financial Management and
        Operations directly supervises and provides leadership and guidance to the Financial
        Management Officer, the Funding and Resources Team and the State and Local Operations
        team. The employees under the supervision and support of the Assistant Director for
        Financial Management and Operations perform a myriad of fiscal and budget related
        activities for the TFF such as: budget formulation, budget execution, financial management
        reporting, revenue collection, and establishing and monitoring internal financial management
        and accounting controls. The Assistant Director for Financial Management and Operations
        coordinates the activities of the financial staff in order to effectively and efficiently improve

          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006                           63
        the overall fiscal management of the TFF. The current organizational structure strengthens
        the control environment in which the fund operates, and ensures effectiveness and efficiency
        of operations, reliability of financial reporting, and compliance with applicable laws and
        regulations.

(b) 	   The TFF has adopted the recommendation from the auditors regarding the estimated
        obligations for equitable sharing obligations during the month of September. The estimate
        was based on an average of equitable sharing percentages for the eleven months preceding
        September. The estimate is being adjusted after year end for any significant difference from
        the estimates received from the applicable bureaus in October.

This material weakness has been substantially addressed in FY 2006 and will not be repeated.




64                         EXHIBIT I1 – STATUS OF PRIOR YEAR FINDINGS
INDIRECT OVERHEAD EXPENSES OF THE NATIONAL SEIZED PROPERTY
CONTRACTOR ARE NOT RECORDED AND ACCOUNTED FOR BY THE FUND TO THE
LINE ITEM LEVEL. (Repeat Reportable Condition)

Indirect overhead expenses of the national seized property contractor are not recorded and accounted
for by the Fund to the line item level. The Fund’s Property Custodian incurs costs on behalf of the
Fund from the time of seizure until the asset is ultimately disposed. Currently, only holding costs
and direct selling costs related to general and real property are captured in the Seized Assets and
Case Tracking System (SEACATS) at the line item level, but not the indirect costs.

RECOMMENDATION

In view of the Fund’s acknowledgement of this condition and SEACATS’ inability to capture the
required information, we make the following recommendations:

1. 	    For all common support costs not directly traceable to individual seizures, an allocation
        process needs to be developed and implemented. Indirect costs will have to be applied to the
        individual seizures. Direct and indirect costs will have to be added together to provide total
        costs per seizure.

2.	     EOAF should vigorously pursue the enhancement of SEACATS system capabilities to
        record and report total expenses at the asset level.

FY 2006 STATUS

(a) 	   Real Property Contract:         TFF Management took action to move the Real Property
        Contract from the auspices of Customs and Border Protection (CBP), Department of
        Homeland Security to direct management by the Executive Office for Asset Forfeiture.
        However, the problem remains because resolution of the issue requires software
        programming by CBP to implement the approved methodology for capturing the overhead
        expenses to the line item level for the real property contract. To date, CBP has not
        accomplished this initiative although the Fund provided resources to do so in the initial year
        the methodology was identified and approved. The condition remains open and unresolved.

(b) 	   General Property Contract: The requirement to distribute contract overhead costs to the
        line item level is included in the Statement of Work for the general property contract now in
        the procurement process. TFF Management has taken action to move procurement of the
        general property contract to the auspices of the Executive Office for Asset Forfeiture.
        Resolution of the Reportable Condition for the general property contract remains open for
        FY 2006.

This reportable condition is being repeated in FY 2006.




          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006                        65
            SECTION IV 


REQUIRED SUPPLEMENTAL INFORMATION 

                                    TREASURY FORFEITURE FUND 

                                    Required Supplemental Information 

                             For the Years Ended September 30, 2006 and 2005 

                                          (Dollars in Thousands) 


  Intragovernmental Amounts – Assets (Dollars in thousands)


                                          2006                                              2005


                           Fund            Accounts                        Fund      Accounts
                        Balance with      Receivable/                   Balance with Receivable
Partner Agency                                          Investments                                       Investments
                         Treasury          Advances                      Treasury    /Advances


Departmental Offices                $--          $166    $      --                  $--            $143     $        --

Bureau of Public                     -              -    $672,180                    -                -     $499,885
Debt

Totals                           $-              $166    $672,180                   $-             $143     $499,885


  Intragovernmental Amounts – Liabilities (Dollars in thousands)


                                                                       2006               2005
                                                                      Accounts       Accounts
                                                                      Payable        Payable
                   Partner Agency


                   Department of Justice                                $12,582           $18,820
                   Departmental Offices                                       513           2,190
                   Department of Homeland Security                        2,790             7,488
                   Internal Revenue Service                              14,573            15,872
                   Totals                                               $30,458           $44,370




                            SECTION IV – REQUIRED SUPPLEMENTAL INFORMATION                                      66
                                   TREASURY FORFEITURE FUND 

                                   Required Supplemental Information 

                            For the Years Ended September 30, 2006 and 2005 

                                         (Dollars in Thousands) 



Intra-Governmental Amounts – Revenues and Costs (Dollars in thousands)


                                       2006                                      2005
                        Cost to Generate    Costs to Generate    Cost to Generate    Costs to Generate
                                              Non-Exchange                             Non-Exchange
                            Exchange                                Exchange
                                            Intragovernmental                        Intragovernmental
                      Intragovernmental          Revenue         Intragovernmental        Revenue
Budget Functions            Revenue                                  Revenue


Administration of       $              --     $       80,009              $     --      $       69,453
Justice


Intragovernmental Amounts – Non-exchange Revenue (Dollars in thousands)


                                                        2006                            2005
Partner Agency                                          In         Out                  In        Out


Department of Justice                                  $--         $32               $--          $44
Department of Homeland Security                         --       22,528                 --      15,753
Department of Treasury                                  --        1,622                 --          -
Internal Revenue Service                                --       17,235                 --      14,137
Financial Crimes Enforcement Network                    --        2,300                 --       2,000
Department of State                                     --          81                  --          -
Department of Labor                                     --          97                  --          -
Central Intelligence Agency                             --         830                  --          -
                                                   ______       ______          _______        ______
Totals                                            $     --      $44,725         $       --     $31,934




67            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
           SECTION V 



OTHER ACCOMPANYING INFORMATION 



           (Unaudited) 

                                 TREASURY FORFEITURE FUND 

                     Equitable Sharing Summarized by State and U.S. Territories 

                               For the Year Ended September 30, 2006 

                                        (Dollars in Thousands) 

                                             (Unaudited) 


State/U.S. Territories                              Currency Value                  Property Value

Alabama                                                     $      4                       $        -
Alaska                                                           136                                -
Arizona                                                          190                              136
Arkansas                                                           -                                -
California                                                       771                              309
Colorado                                                          83                                -
Connecticut                                                      284                                -
D.C. Washington                                                  304                               17
Delaware                                                           4                                -
Florida                                                        7,978                            2,499
Georgia                                                        1,928                               35
Guam                                                             149                                -
Hawaii                                                           496                                -
Idaho                                                             31                                -
Illinois                                                       2,408                                -
Indiana                                                          263                              110
Iowa                                                               7                              104
Kansas                                                             9                                -
Kentucky                                                         254                                -
Louisiana                                                      1,330                               68
Maine                                                             70                                -
Maryland                                                       1,774                                3
Massachusetts                                                    204                               37
Michigan                                                       2,493                               37
Minnesota                                                        346                               88
Mississippi                                                      547                              103
Missouri                                                         194                               35
Montana                                                            -                                -
Nebraska                                                          12                                -
Nevada                                                             -                                -
New Jersey                                                     2,441                               12
New Hampshire                                                     19                               36
New Mexico                                                         2                                1
New York                                                       9,316                              289
North Carolina                                                 2,528                              147
North Dakota                                                       -                                -
Ohio                                                             117                                -
Oklahoma                                                          19                                2
Oregon                                                           494                               34
Pennsylvania                                                   3,206                               32
Puerto Rico                                                    4,083                              127
Rhode Island                                                       6                                -
South Carolina                                                   186                                -
South Dakota                                                       -                                -
Tennessee                                                      1,160                            1,037
Texas                                                          9,648                            1,642
Utah                                                             104                              164
Subtotal carried forward                                     $55,598                           $7,104


                           SECTION V – OTHER ACCOMPANYING INFORMATION                                   68
                                      TREASURY FORFEITURE FUND 

                          Equitable Sharing Summarized by State and U.S. Territories 

                                    For the Year Ended September 30, 2006 

                                            (Dollars in Thousands) 

                                                 (Unaudited) 



      State/U.S. Territories                                    Currency Value                   Property Value

      Subtotal brought forward                                        $55,598                            $7,104
      Vermont                                                              34                                 -
      Virgin Islands                                                        -                                 -
      Virginia                                                          2740                                214
      Washington                                                          473                               238
      West Virginia                                                        58                                 -
      Wisconsin                                                            93                                 6
      Wyoming

              Totals                                                  $58,996                          $ 7,562



Summarized above are the currency and property values of assets forfeited and shared with state and local agencies
and U.S. Territories participating in the seizure. This supplemental schedule is not a required part of the financial
statement of the Department of the Treasury Forfeiture Fund. Information presented on this schedule represents
assets physically transferred during the year and, therefore, does not agree with total assets shared with state and
local agencies in the financial statements. In addition, the above numbers do not include the adjustment to present
property distributed at net realizable value.




69                TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
                                  TREASURY FORFEITURE FUND 

                Uncontested Seizures of Currency and Monetary Instruments Valued Over 

                 $100,000, Taking More Than 120 Days from Seizure to Deposit in Fund 

                                For the Year Ended September 30, 2006 

                                         (Dollars in Thousands) 




31 U.S.C. 9703(f)(2)(E) requires the Secretary of the Treasury to report annually to Congress uncontested seizures
of currency or proceeds of monetary instruments over $100,000, which were not deposited in the Department of the
Treasury Forfeiture Fund within 120 days of the seizure date. There were no administrative seizures over $100,000
over 120 days old for all bureaus in FY 2006.




                              SECTION V – OTHER ACCOMPANYING INFORMATION                                         70
                                    TREASURY FORFEITURE FUND 

                            Analysis of Revenue and Expenses and Distributions 

                                 For the Year Ended September 30, 2006 

                                          (Dollars in Thousands) 


  Revenue, Expenses and Distributions by Asset Category:
                                                                                                 Expenses and
                                                                                 Revenue         Distributions

  Vehicles                                                                       $13,782               $32,041
  Vessels                                                                          3,828                40,824
  Aircraft                                                                         3,828                13,152
  General Property                                                                12,250               129,578
  Real Property                                                                   42,876                 5,075
  Currency and monetary instruments                                              208,767                64,661
                                                                                 285,331               285,331
  Less:
    Mortgages and claims                                                         (11,510)              (11,510)
    Refunds                                                                      (16,625)              (16,625)
  Add:
    Excess of net revenues and financing sources over total program                     --                    -
        expenses
  Total                                                                         $257,196              $257,196

  Revenues, Transfers, Expenses and Distributions by Type of
  Disposition:
  Sales of property and forfeited currency and monetary instruments              188,242                54,212
  Reimbursed storage costs                                                         7,324                28,533
  Assets shared with state and local agencies                                     81,311                81,311
  Assets shared with other federal agencies                                        6,401                 6,401
  Assets shared with foreign countries                                               707                   707
  Victim Restitution                                                               1,346                 1,346
  Destructions                                                                         --               34,240
  Pending disposition                                                                  --               78,581
                                                                                 285,331               285,331
  Less:
    Mortgages and claims                                                         (11,510)              (11,510)
    Refunds                                                                      (16,625)              (16,625)
  Add:
    Excess of net revenues and financing sources over total program                     --                    -
        expenses
  Total                                                                         $257,196              $257,196

The revenue amount of $257,196 is from the Statement of Changes in Net Position. This supplemental schedule
“Analysis of Revenues, Expenses and Distributions” is required under the Treasury Forfeiture Fund Act of 1992.
Because the Fund does not have a cost accounting system, the method used does not provide reliable information in
the analysis of revenue and expenses and distributions by type of disposition. The information is presented to
comply with the requirements of the Treasury Forfeiture fund Act of 1992.

71               TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
                                       TREASURY FORFEITURE FUND
                                    Information Required by 31 U.S.C. 9703(f)
                                     For the Year Ended September 30, 2006
                                             (Dollars in Thousands)

The Treasury Forfeiture Fund Act of 1992, 31 U.S.C. 9703(f), requires the Secretary of the Treasury to transmit to
Congress, no later than February 1, of each year, certain information. The following summarizes the required
information.

(1)    A report on:

       (A)	      The estimated total value of property forfeited with respect to which funds were not deposited
              in the Department of the Treasury Forfeiture Fund during the preceding fiscal year under any
              law enforced or administered by the Department of the Treasury law enforcement organizations
              of the United States Coast Guard, in the case of fiscal years beginning after 1993.

              As reported in the audited financial statements, at September 30, 2006, the Fund had forfeited property
              held for sale of $46,665. The realized proceeds will be deposited in the Fund when the property is sold.

              Upon seizure, currency and other monetary instruments not needed for evidence in judicial proceedings
              are deposited in a U.S. Customs Service (Customs) suspense account. Upon forfeiture, it is transferred
              to the Treasury Forfeiture Fund. At September 30, 2006, there was $19,280 of forfeited currency and
              other monetary instruments that had not yet been transferred to the Fund. This is reported as a part of
              “Cash and Other Monetary Assets” in the audited financial statements.

       (B)	     The estimated total value of all such property transferred to any state or local law enforcement
              agency.

              The estimated total value of all such property transferred to any state or local law enforcement bureau is
              summarized by state and U.S. territories. Total currency transferred was $2,440 and total property
              transferred was $15,723 at appraised value.

(2)    A report on:

       (A)       The balance of the Fund at the beginning of the preceding fiscal year.

              The total net position of the Treasury Forfeiture Fund on September 30, 2005 which became the
              beginning balance for the Fund on October 1, 2005, as reported in the audited financial statements is
              $255,307.

       (B) 	 Liens and mortgages paid and the amount of money shared with federal, state, local and
           foreign law enforcement bureaus during the preceding fiscal year.

              Mortgages and claims expense, as reported in the audited financial statements, was $11,510. The
              amount actually paid on a cash basis was not materially different.




                                SECTION V – OTHER ACCOMPANYING INFORMATION                                             72
                                     TREASURY FORFEITURE FUND
                                  Information Required by 31 U.S.C. 9703(f)
                                   For the Year Ended September 30, 2006
                                           (Dollars in Thousands)

             The amount of forfeited currency and property shared with federal, and distributed to state, local and
             foreign law enforcement bureaus as reported in the audited financial statements was as follows:

                                State and local                           $81,311
                                Foreign countries                             707
                                Other federal agencies                      6,401
                                Victim restitution                          1,346

     (C) 	 The net amount realized from the operations of the Fund during the preceding fiscal year, the
          amount of seized cash being held as evidence, and the amount of money that has been carried
          over into the current fiscal year.

             The net cost of operations of the Fund as shown in the audited financial statements is $141,256.

             The amount of seized currency not on deposit in the Fund’s suspense account at September 30, 2006,
             was $67,278. This amount includes some funds in the process of being deposited at yearend; cash
             seized in August or September 2006 that is pending determination of its evidentiary value from the U.S.
             Attorney; and the currency seized for forfeiture being held as evidence.

             On a budgetary basis, unobligated balances as originally reported on the Office of Management and
             Budget Reports, SF-133, “Report on Budget Execution” was approximately $82,935 for fiscal year
             2006.

     (D) 	 Any defendant’s property not forfeited at the end of the preceding fiscal year, if the equity in
          such property is valued at $1 million or more.

             The total approximate value of such property for the Treasury Forfeiture Fund, at estimated values
             determined by bureau and contractor’s officials, and the number of seizures is as follows:

                     CBP                                           $75,154          26 seizures
                     IRS                                           265,166          97 seizures
                     U.S. Secret Service                             3,036           2 seizures

     (E) 	      The total dollar value of uncontested seizures of monetary instruments having a value of over
             $100,000 which, or the proceeds of which, have not been deposited into the Fund within 120 days
             after the seizure, as of the end of the preceding fiscal year.

             The total dollar value of such seizures is $0. This is also documented on page 70.




73                TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2006
                                 TREASURY FORFEITURE FUND
                              Information Required by 31 U.S.C. 9703(f)
                               For the Year Ended September 30, 2006
                                       (Dollars in Thousands)

(F)        The balance of the Fund at the end of the preceding fiscal year.

        The total net position of the Fund at September 30, 2006, as reported in the audited financial statements
        is $236,757.

(G) 	 The net amount, if any, of the excess unobligated amounts remaining in the Fund at the end of
     the preceding fiscal year and available to the Secretary for Federal law enforcement related
     purposes.

        There is no cap on amounts that can be carried forward into Fiscal Year 2007 per the fiscal year 1997
        Omnibus Appropriations Act (PL 104-208).

(H) 	 A complete set of audited financial statements prepared in a manner consistent with the
    requirements of the Chief Financial Officers Act of 1990.

        The audited financial statements, including the Independent Auditor’s Report, is found in Section II.

(I) 	      An analysis of income and expense showing revenue received or lost: (i) by property category
        (such as general property, vehicles, vessels, aircraft, cash, and real property); and (ii) by type of
        disposition (such as sale, remission, cancellation, placement into official use, sharing with state
        and local agencies, and destruction).

        A separate schedule is presented on page 71.




                          SECTION V – OTHER ACCOMPANYING INFORMATION                                            74
